<html>
<title> - H.R. 3258, H.R. 3307, and H.R. 3718</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]



 
                  H.R. 3258, H.R. 3307, and H.R. 3718
=======================================================================

                          LEGISLATIVE HEARING

                               before the

      SUBCOMMITTEE ON NATIONAL PARKS, RECREATION, AND PUBLIC LANDS

                                 of the

                         COMMITTEE ON RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             April 11, 2002

                               __________

                           Serial No. 107-102

                               __________

           Printed for the use of the Committee on Resources



 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
         Committee address: http://resourcescommittee.house.gov







                           U.S. GOVERNMENT PRINTING OFFICE
78-660                          WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001







                         COMMITTEE ON RESOURCES

                    JAMES V. HANSEN, Utah, Chairman
       NICK J. RAHALL II, West Virginia, Ranking Democrat Member

Don Young, Alaska,                   George Miller, California
  Vice Chairman                      Edward J. Markey, Massachusetts
W.J. ``Billy'' Tauzin, Louisiana     Dale E. Kildee, Michigan
Jim Saxton, New Jersey               Peter A. DeFazio, Oregon
Elton Gallegly, California           Eni F.H. Faleomavaega, American 
John J. Duncan, Jr., Tennessee           Samoa
Joel Hefley, Colorado                Neil Abercrombie, Hawaii
Wayne T. Gilchrest, Maryland         Solomon P. Ortiz, Texas
Ken Calvert, California              Frank Pallone, Jr., New Jersey
Scott McInnis, Colorado              Calvin M. Dooley, California
Richard W. Pombo, California         Robert A. Underwood, Guam
Barbara Cubin, Wyoming               Adam Smith, Washington
George Radanovich, California        Donna M. Christensen, Virgin 
Walter B. Jones, Jr., North              Islands
    Carolina                         Ron Kind, Wisconsin
Mac Thornberry, Texas                Jay Inslee, Washington
Chris Cannon, Utah                   Grace F. Napolitano, California
John E. Peterson, Pennsylvania       Tom Udall, New Mexico
Bob Schaffer, Colorado               Mark Udall, Colorado
Jim Gibbons, Nevada                  Rush D. Holt, New Jersey
Mark E. Souder, Indiana              James P. McGovern, Massachusetts
Greg Walden, Oregon                  Anibal Acevedo-Vila, Puerto Rico
Michael K. Simpson, Idaho            Hilda L. Solis, California
Thomas G. Tancredo, Colorado         Brad Carson, Oklahoma
J.D. Hayworth, Arizona               Betty McCollum, Minnesota
C.L. ``Butch'' Otter, Idaho
Tom Osborne, Nebraska
Jeff Flake, Arizona
Dennis R. Rehberg, Montana

                      Tim Stewart, Chief of Staff
           Lisa Pittman, Chief Counsel/Deputy Chief of Staff
                Steven T. Petersen, Deputy Chief Counsel
                    Michael S. Twinchek, Chief Clerk
                 James H. Zoia, Democrat Staff Director
               Jeffrey P. Petrich, Democrat Chief Counsel
                                 ------                                
      SUBCOMMITTEE ON NATIONAL PARKS, RECREATION, AND PUBLIC LANDS

               GEORGE P. RADANOVICH, California, Chairman
      DONNA M. CHRISTENSEN, Virgin Islands Ranking Democrat Member

Elton Gallegly, California            Dale E. Kildee, Michigan
John J. Duncan, Jr., Tennessee       Eni F.H. Faleomavaega, American 
 Joel Hefley, Colorado                   Samoa
Wayne T. Gilchrest, Maryland         Frank Pallone, Jr., New Jersey
Walter B. Jones, Jr., North          Tom Udall, New Mexico
    Carolina,                        Mark Udall, Colorado
  Vice Chairman                      Rush D. Holt, New Jersey
Mac Thornberry, Texas                James P. McGovern, Massachusetts
Chris Cannon, Utah                   Anibal Acevedo-Vila, Puerto Rico
Bob Schaffer, Colorado               Hilda L. Solis, California
Jim Gibbons, Nevada                  Betty McCollum, Minnesota
Mark E. Souder, Indiana
Michael K. Simpson, Idaho
Thomas G. Tancredo, Colorado
                            C Of N T E N T S

                              ----------                              
                                                                   Page

Hearing held on April 11, 2002...................................     1

Statement of Members:
    Bono, Hon. Mary, a Representative in Congress from the State 
      of California..............................................     9
        Prepared statement on H.R. 3718..........................    10
    Christensen, Hon. Donna M., a Delegate in Congress from the 
      Virgin Islands.............................................     2
    Cubin, Hon. Barbara, a Representative in Congress from the 
      State of Wyoming...........................................     3
        Prepared statement on H.R. 3258..........................     5
    Radanovich, Hon. George P., a Representative in Congress from 
      the State of California....................................     1
        Prepared statement of....................................     2
    Thompson, Hon. Bennie, a Representative in Congress from the 
      State of Mississippi.......................................     6
        Prepared statement on H.R. 3307..........................     7

Statement of Witnesses:
    Boss, Terry, Senior Vice President -- Environment, Safety and 
      Operations, Interstate Natural Gas Association of America, 
      Washington, D.C............................................    36
        Prepared statement on H.R. 3258..........................    37
    Culp, Pete, Assistant Director, Minerals, Realty and Resource 
      Protection, Bureau of Land Management, U.S. Department of 
      the Interior, Washington, D.C..............................    11
        Prepared statement on H.R. 3258..........................    12
    Jones, Durand, Deputy Director, National Park Service, U.S. 
      Department of the Interior, Washington, D.C................    18
        Prepared statement on H.R. 3307..........................    20
        Prepared statement on H.R. 3718..........................    21
    Marker, Todd, RM Broadcasting, Palm Springs, California......    47
        Prepared statement on H.R. 3718..........................    48
    Myers, Eric D., Executive Director, TELROW Coalition, 
      Washington, D.C............................................    31
        Prepared statement on H.R. 3258..........................    33
    P'Pool, Kenneth H., Deputy State Historic Preservation 
      Officer, Mississippi Department of Archives and History, 
      Jackson, Mississippi.......................................    40
        Prepared statement on H.R. 3307..........................    41

Additional materials supplied:
    Anderson, Rick, Superintendent, National Park Service, U.S. 
      Department of the Interior, Letter submitted for the record    28


H.R. 3258, To amend the Federal Lands Policy and Management Act of 1976 
 to clarify the method by which the Secretary of the Interior and the 
 Secretary of Agriculture determine the fair market value of right-of-
way granted, issued, or renewed under such Act to prevent unreasonable 
      increases in certain costs in connection with deployment of 
    communications and other critical infrastructure; H.R. 3307, To 
 authorize the Secretary of the Interior to acquire the property known 
  as Pemberton's Headquarters and to modify the boundary of Vicksburg 
    National Military Park to include that property, and for other 
  purposes; and H.R. 3718, to authorize a right-of-way through Joshua 
              Tree National Park, and for other purposes.

                              ----------                              


                        Thursday, April 11, 2002

                     U.S. House of Representatives

      Subcommittee on National Parks, Recreation, and Public Lands

                         Committee on Resources

                             Washington, DC

                              ----------                              

    The Subcommittee met, pursuant to notice, at 2:07 p.m., in 
room 1334, Longworth House Office Building, Hon. George 
Radanovich [Chairman of the Subcommittee] presiding.

STATEMENT OF THE HON. GEORGE P. RADANOVICH, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Radanovich. Good afternoon, and welcome to our hearing 
today.
    This afternoon, the Subcommittee on National Parks, 
Recreation and Public Lands will hear testimony on three bills: 
H.R. 3258, H.R. 3307, and H.R. 3718.
    Mr. Radanovich. Our first bill is H.R. 3258, introduced by 
our Committee colleague, Barbara Cubin of Wyoming. And it would 
amend the Federal Land Policy and Management Act to clarify the 
method by which the Secretary of the Interior and the Secretary 
of Agriculture determine the fair market value of rights-of-way 
in connection with the deployment of communications and other 
critical infrastructure. Welcome, Barbara.
    Our second bill is H.R. 3307, introduced by Congressman 
Bennie Thompson of Mississippi. It would authorize the 
Secretary of the Interior to acquire the property known as 
Pemberton's Headquarters and to modify the boundary of the 
Vicksburg National Military Park accordingly. Bennie, welcome, 
and thank you for being here.
    The last bill is H.R. 3718, introduced by Congresswoman 
Mary Bono, which would authorize the rights-of-way through 
Joshua Tree National Park. Welcome, Mary.
    At this time I ask unanimous consent that Congresswoman 
Cubin, Congressman Thompson, and Congresswoman Bono be 
permitted to sit on the dais following their statements, and 
without objection, so ordered.
    Once again, I appreciate representation by all folks here 
and appreciate all the other witnesses that will be here to 
testify today, and I now turn the meeting over to our ranking 
member, Mrs. Christensen. Donna?
    [The prepared statement of Mr. Radanovich follows:]

Statement of The Honorable George P. Radanovich, Chairman, Subcommittee 
on National Parks, Recreation and Public Lands, on H.R. 3258, H.R. 3307 
                             and H.R. 3718

    Good afternoon and welcome to the hearing today. The Subcommittee 
will come to order. This afternoon, the Subcommittee on National Parks, 
Recreation, and Public Lands will hear testimony on three bills, H.R. 
3258, H.R. 3307, and H.R. 3718.
    Our first bill, H.R. 3258, introduced by our Committee colleague 
Barbara Cubin of Wyoming, would amend the Federal Land Policy and 
Management Act to clarify the method by which the Secretary of Interior 
and the Secretary of Agriculture determine the fair market value of 
rights-a-way in connection with the deployment of communications and 
other critical infrastructure.
    Our second bill, H.R. 3307 introduced by Congressman Bennie 
Thompson of Mississippi, would authorize the Secretary of the Interior 
to acquire the property known as Pemberton's Headquarters and to modify 
the boundary of Vicksburg National Military Park accordingly.
    The last bill, H.R. 3718, introduced by Congresswoman Mary Bono, 
would authorize the right-of-way through Joshua Tree National Park.
    At this time, I ask unanimous consent that Congresswoman Cubin, 
Congressman Thompson and Congresswoman Bono be permitted to sit on the 
dais following their statements. Without objection [PAUSE], so ordered.
    Once again, I appreciate Congresswoman Cubin, Congressman Thompson, 
and Congresswoman Bono and all the other witnesses being here to 
testify today and I now turn the time over to the ranking member, Mrs. 
Christensen for an opening statement.
                                 ______
                                 

   STATEMENT OF THE HON. DONNA M. CHRISTENSEN, A DELEGATE IN 
                CONGRESS FROM THE VIRGIN ISLANDS

    Mrs. Christensen. Thank you, Mr. Chairman.
    Mr. Chairman, I want to join you in welcoming our 
colleagues here this afternoon and all of the other witnesses 
that might be attending the hearing. I thank them for their 
time and their efforts to help us gather necessary information 
on the bills before us this afternoon.
    Our first bill, H.R. 3258, raises a number of serious 
concerns. Under the Federal Land Policy and Management Act of 
1976, known to many of us as FLPMA, rights-of-way fees are to 
be charged at a level equal to the fair market value of the 
right authorized. However, in evidence in both GAO and 
inspector general reports, the BLM and the Forest Service 
charge right-of-way fees that fail to reflect the fair market 
value, with the result being that the public has not received 
the fees for this use of public resources that the law 
requires. Instead of correcting the problem, H.R. 3258 sets in 
place a cumbersome fee structure that does not reflect the fair 
market value and is inconsistent with fees to be charged for 
similar uses of public resources.
    So, Mr. Chairman, I share the concerns expressed in the 
administration's testimony that this legislation is too costly, 
it is time-consuming, and it still does not provide the 
compensation to the American public that should be provided.
    The second measure, introduced by my colleague and good 
friend Bennie Thompson, H.R. 3307, would authorize an important 
addition to the Vicksburg National Military Park. The Battle of 
Vicksburg was a critical chapter in the Civil War, and 
headquarters of the Confederate commanding officer during that 
battle would be an important addition to the park. It is our 
understanding that General Pemberton's Headquarters is some 
distance removed from the park, and we look forward to hearing 
from our witnesses regarding any management challenges that 
this might pose, as well as more about the history of this 
structure.
    The final measure before us today, H.R. 3718, is troubling, 
Mr. Chair. Apparently, a broadcasting company purposely cut a 
road through a designated wilderness area to allow access to 
one of its radio towers. The company did this with absolutely 
no authority and knowing full well that the area was Federal 
property. Such a road would be illegal.
    While H.R. 3718 purports to deal with this situation, we 
are concerned that the approach taken in the bill lets the 
company off too lightly. Instead of rewarding such behavior, we 
should be looking at punitive provisions to ensure that any 
company considering trespassing on Federally designated 
wilderness would think twice about such action.
    Thank you, Mr. Chairman, and I look forward to the 
testimony of our witnesses.
    Mr. Radanovich. Thank you, Mrs. Christensen.
    With that we will go ahead and begin with our panel. 
Congresswoman Barbara Cubin, if you would like to start, 
welcome to the Committee, and we look forward to your 
testimony.

   STATEMENT OF THE HON. BARBARA CUBIN, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF WYOMING

    Mrs. Cubin. Thank you, Mr. Chairman, and thank you for 
scheduling H.R. 3258 for a hearing today. I appreciate your 
work and interest in this issue.
    I know you have long been an advocate for fair and 
reasonable Federal land rights-of-way fees, and for that I am 
very pleased to be working with you and greatly appreciate your 
support and cosponsorship of this bill.
    The Nation's system of roadways and railways were born of 
effective partnerships in planning and construction between the 
Federal Government and private industry.
    Today, we face the challenge of expanding the next 
generation of technology and energy infrastructures to 
underserved areas of the country and bringing commercial 
benefits to citizens set apart by geographic, economic, and 
digital divides.
    I serve as a member of the House Energy and Commerce 
Subcommittee on Telecommunications and the Internet. As such, I 
have been exploring ways to facilitate the expansion of the 
telecommunications infrastructure in my home State of Wyoming, 
as well as in other rural areas. In doing so, I became aware of 
a significant Federal obstacle to infrastructure development 
nationwide.
    Recent applications of the Federal Land Policy and 
Management Act, or FLPMA, as we so fondly call it, have 
resulted in exorbitant increases in fees to cross Federal 
lands. Telecommunications providers, particularly those 
building the next generation of fiber-optic broadband 
infrastructure, have been specifically targeted for these fee 
increases, while other infrastructure providers have been put 
on notice of changes to come.
    FLPMA requires that private uses of public lands pay a fair 
price for that privilege, a policy that protects the value of 
our Federal lands, helps ensure that these resources continue 
to be available to and accommodating of a multitude of 
compatible uses.
    Recent interpretations of FLPMA, however, have motivated 
policies which reach beyond the value of Federal lands, 
attempting to associate the right-of-way to cross Federal lands 
with the revenues that are generated by the use of 
telecommunications technologies.
    In the exercise of our public trust responsibilities, the 
Federal Government protects and preserves the public interest 
in our Federal lands. I am confident, however, that there is 
little public interest in turning our Federal lands into toll 
booths or road blocks on the information superhighway or along 
the path of any of our Nation's critical infrastructures.
    In 1999 and 2000, revisions to the right-of-way rental fee 
schedules by the BLM and the U.S. Forest Service led to some 
fiber-optic telecommunications companies receiving fee 
increases of up to 100 to 150 times their previous annual 
bills.
    Congress put a temporary halt to these interim revisions to 
existing right-of-way regulations in the Fiscal Year 2001 
appropriations bill.
    As the agencies process toward the rulemaking process 
required to change existing right-of-way fees, it is important 
that their responsibilities regarding the determination and 
collection of right-of-way fees be clear and that we avoid a 
reiteration of the previous misguided proposals.
    A permanent solution must be found. That is why I have 
introduced H.R. 3258, the Reasonable Right-of-Way Fees Act.
    H.R. 3258 simply clarifies the responsibilities we have to 
protect the value of Federal lands, explicitly limiting the 
fees we charge for rights-of-way to the value of those lands, 
the fair market value of those lands.
    As a representative of the most rural State in the country, 
I recognize the tremendous value of the vast open spaces of our 
rural West, including lands managed by the Federal Government. 
But these lands should not become an obstacle to the 
infrastructure development we so badly need. Charging fair 
market value for the use of Federal lands does not mean that we 
share in the revenues associated with the facilities that cross 
those Federal lands.
    H.R. 3258 guarantees that Federal lands will continue to be 
protected as valuable national resources and ensures that these 
lands will not present unnecessary obstacles to infrastructure 
deployment and improvement.
    Thank you again, Mr. Chairman, for holding this hearing. I 
appreciate your support of this legislation, and I look forward 
to hearing from the other witnesses who will testify regarding 
it.
    [The prepared statement of Mrs. Cubin follows:]

Statement of The Honorable Barbara Cubin, a Representative in Congress 
                from the State of Wyoming, on H.R. 3258

    Thank you Mr. Chairman for scheduling H.R. 3258 for a hearing 
today. I appreciate your work and interest in this issue.
    I know that you have been an advocate for fair and reasonable 
Federal land rights-of-way fees and for that I'm very pleased to be 
working with you and greatly appreciate your support for and 
cosponsoring of the bill.
    This nation's system of roadways and railways were borne of 
effective partnerships in planning and construction between the Federal 
Government and private industry.
    Today, we face the challenge of expanding the next generation of 
technology and energy infrastructures to under-served areas of the 
country, and bringing commercial benefits to citizens set apart by 
geographic, economic, and ``digital'' divides.
    I serve as a member of the House Energy and Commerce Subcommittee 
on Telecommunications and the Internet.
    As such, I have been exploring ways to facilitate the expansion of 
telecommunications infrastructure in my home state of Wyoming.
    In doing so I became aware of a significant Federal obstacle to 
infrastructure development nation wide.
    Recent applications of the Federal Land Policy and Management Act 
(FLPMA) have resulted in exorbitant increases in fees to cross Federal 
lands.
    Telecommunications providers, particularly those building the next 
generation of fiber optic broadband infrastructure, have been 
specifically targeted for these fee increases, while other 
infrastructure providers have been put on notice of changes to come.
    FLPMA requires that private uses of public lands pay a fair price 
for that privilege, a policy that protects the value of our Federal 
lands, helps ensure that these resources continue to be available to 
and accommodating of a multitude of compatible uses.
    Recent interpretations of FLPMA, however, have motivated policies 
which reach beyond the value of Federal lands, attempting to associate 
the right to cross Federal lands with the revenues generated by the use 
of telecommunications technologies.
    In the exercise of our public trust responsibilities, the Federal 
Government protects and preserves the public interest in our Federal 
lands.
    I am confident, however, that there is little public interest in 
turning our Federal lands into toll booths or road blocks on the 
information superhighway, or along the path of any of our nation's 
critical infrastructures.
    In 1999 and 2000, revisions to right-of-way rental fee schedules by 
the Bureau of Land Management (BLM) and U.S. Forest Service led to some 
fiber-optic telecommunications companies receiving fee increases of 100 
to 150 times their previous annual bills.
    Congress put a temporary halt to these interim revisions to 
existing right-of-way regulations in the Fiscal Year 2001 
Appropriations bill.
    As the agencies proceed toward the rulemaking process required to 
change existing right-of-way fees, it is important that their 
responsibilities regarding the determination and collection of right-
of-way fees be clear, and that we avoid a reiteration of the previous, 
misguided proposals.
    A permanent solution must be found. Therefore, I have introduced 
H.R. 3258, the Reasonable Right-of-Way Fees Act.
    H.R. 3258 clarifies the responsibilities we have to protect the 
value of Federal lands, explicitly limiting fees we charge for rights-
of-way to the value of those lands.
    As a representative of the most rural state in the country, I 
recognize the tremendous value of the vast open spaces of our rural 
West, including lands managed by the Federal Government.
    These lands should not become an obstacle to infrastructure 
development. Charging fair market value for the use of Federal lands 
does not mean a share in the revenues associated with facilities 
crossing Federal lands.
    H.R. 3258 guarantees that Federal lands will continue to be 
protected as valuable national resources, and ensures that these lands 
will not present unnecessary obstacles to infrastructure deployment and 
improvement.
    Again, thank you Mr. Chairman for holding this hearing. I 
appreciate your support for this legislation and I look forward to 
hearing from the other witnesses.
                                 ______
                                 
    Mr. Radanovich. Thank you very much, Barbara.
    Next is the honorable Bennie Thompson from the 2nd District 
of the State of Mississippi, here to speak on H.R. 3307. 
Welcome, Congressman. You may begin.

STATEMENT OF HON. BENNIE THOMPSON, A REPRESENTATIVE IN CONGRESS 
                 FROM THE STATE OF MISSISSIPPI

    Mr. Thompson. Thank you, Mr. Chairman. I appreciate the 
opportunity to present my views on H.R. 3307, which would 
authorize the Secretary of the Interior to acquire the property 
known as Pemberton's Headquarters and to modify the boundary of 
the Vicksburg National Military Park to allow for the inclusion 
of that property.
    In 1895, Union and Confederate veterans organized the 
Vicksburg Military Park Association to petition Congress to 
establish a national military park at Vicksburg comparable to 
those previously established at Chattanooga, Shiloh, and 
Gettysburg. These veterans of the siege of Vicksburg 
recommended that the headquarters of both Union Major General 
Ulysses S. Grant and Conference General John Pemberton be 
included in the park. However, when Congress enacted the 
legislation establishing the park in 1899, it simply charged 
park commissioners to ``mark with historical tablets...the 
headquarters of General Grant and of General Pemberton.''
    It is important to note that, when the enabling legislation 
was passed, the building that had served as General Pemberton's 
Headquarters was a private residence. As Congress at that time 
was reluctant to condemn property with private housing on it 
for public use, Pemberton's Headquarters, located in the heart 
of the city's historic district, was excluded from the park. 
However, the site of Grant's Headquarters, located in the 
proximity of the Union siege lines around Vicksburg, was 
incorporated into the park.
    In 1990, new legislation charged Vicksburg National 
Military Park ``to interpret the campaign and siege of 
Vicksburg from April 1862 to July 4, 1863, and the history of 
Vicksburg under the Union occupation during the Civil war and 
Reconstruction.'' Thus, the park finds itself today with its 
interpretive mission greatly expanded, but without the 
facilities and means to fulfill this legislated mandate. 
Acquisition of Pemberton's Headquarters would provide the park 
with the facilities it needs to allow it to address the 
expanded mandate and, at the same time, to finally fulfill the 
desire of the veterans themselves who sought to include the 
building within the park.
    My understanding is that a preliminary interpretive plan 
has been developed by the staff at Vicksburg National Military 
Park which proposes developing such interpretive themes as: 
``The Military Significance of Vicksburg during the Civil 
War,'' ``The Role of Blacks and Black Troops in the Siege and 
Defense of Vicksburg,'' ``Military Occupation of Vicksburg,'' 
``Reconstruction in Vicksburg,'' and ``Work of the Freedom's 
Bureau.'' Walking tours could also be conducted from 
Pemberton's Headquarters to other historical sites, many of 
which have African American significance, throughout downtown 
Vicksburg.
    Acquisition of Pemberton's Headquarters by the National 
Park Service has long been a desire of the Mayor and Board of 
Aldermen of Vicksburg and the Warren County Board of 
Supervisors and the State Historic Preservation Office, who is 
represented here today by Kenneth H. P'Pool, Deputy State 
Preservation Officer for Mississippi and Director of the 
Historic Preservation Division of the Mississippi Department of 
Archives and History. The Honorable Robert M. Walker, former 
Mayor of Vicksburg, voiced his strong interest in the National 
Park Service acquiring the Pemberton Headquarters that it may 
serve as the catalysts for the establishment of a United States 
Colored Troops National Research Center in the nearby Southern 
Heritage Cultural Center. The current mayor, the Honorable 
Laurence Leyen, supports the idea as well. In addition to this, 
H.R. 3307 has the support of the entire Mississippi 
congressional delegation.
    The interests of Vicksburg/Warren County as well as those 
of the Nation would be well served in this acquisition, 
restoration, and operational of the Pemberton Headquarters by 
the National Park Service.
    Mr. Chairman, in closing, it is important to note that the 
funds necessary to facilitate the start of this project, the 
acquisition and minimum restoration, have already been 
appropriated in the Fiscal Year 2002 Department of Interior and 
Related Agencies Appropriations Act. Under last year's act, 
$500,000 was dedicated to this project, and it is my 
understanding that modest future funds will be required to 
complete the restoration and to cover annual maintaining and 
operating cost.
    Again, Mr. Chairman, I urge the Committee to support H.R. 
3307.
    Thank you very much.
    [The prepared statement of Mr. Thompson follows:]

  Statement of The Honorable Bennie G. Thompson, a Representative in 
          Congress from the State of Mississippi on H.R. 3307

    Mr. Chairman, I appreciate the opportunity to present my views on 
H.R. 3307, which would authorize the Secretary of the Interior to 
acquire the property known as the Pemberton's Headquarters and to 
modify the boundary of the Vicksburg National Military Park to allow 
for the inclusion of that property.
    In 1895, Union and Confederate veterans organized the Vicksburg 
National Military Park Association to petition Congress to establish a 
national military park at Vicksburg comparable to those previously 
established at Chickamauga/Chattanooga, Antietam, Shiloh, and 
Gettysburg. These veterans of the Siege of Vicksburg recommended that 
the headquarters of both Union Major General Ulysses S. Grant and 
Confederate Lt. General John C. Pemberton be included in the park. 
However, when Congress enacted the legislation establishing the park in 
1899, it simply charged park commissioners to ``mark with historical 
tablets...the headquarters of General Grant and of General Pemberton.''
    It is important to note that, when the enabling legislation was 
passed, the building that had served as General Pemberton's 
headquarters was a private residence, lived in by respective citizens. 
As Congress at that time was reluctant to condemn property with private 
housing on it for public use, Pemberton's headquarters, located in the 
heart of the city's historic district, was excluded from the park. 
However, the site of Grant's headquarters, located in the proximity to 
the Union siege lines around Vicksburg, was incorporated into the park.
    In 1990, new legislation (P.L. 101-442) charged Vicksburg National 
Military Park ``to interpret the campaign and siege of Vicksburg from 
April 1862 to July 4, 1863, and the history of Vicksburg under the 
Union occupation during the Civil War and Reconstruction.'' Thus, the 
park finds itself today with its interpretive mission greatly expanded, 
but without the facilities and means to fulfill this legislated 
mandate. Acquisition of Pemberton's Headquarters would provide the park 
with the facilities it needs to allow it to address this expanded 
mandate and, at the same time, to finally fulfill the desire of 
veterans themselves who sought to include the building within the park.
    Pemberton's Headquarters is a registered National Landmark. Its 
location next to the Balfour House, which served as headquarters for 
the Union occupation forces, and only four blocks from the historic 
Warren County Courthouse where military administration of the occupied 
city was conducted through Reconstruction, makes the Pemberton House 
ideally situated for the park to address its expanded interpretive 
mandate. It is also centrally located for National Park Service to 
administer its outlying park units in and around Vicksburg.
    Its current owner has recently restored the building and, should 
the National Park Service acquire it, will need only minimal 
restoration for historical accuracy.
    My understanding is that a preliminary interpretive plan has been 
developed by the staff at Vicksburg National Military Park which 
proposes developing such interpretive themes as: ``The Military 
Significance of Vicksburg During the Civil War,'' ``Construction of 
Confederate Fortifications,'' ``Citizens Under Siege,'' ``The Role of 
Blacks and Black Troops in the Siege and Defense of Vicksburg,'' 
``Surrender of Vicksburg,'' ``Military Occupation of Vicksburg,'' 
``Reconstruction in Vicksburg,'' and ``Work of the Freedom's Bureau.'' 
Walking tours could also be conducted from Pemberton's Headquarters to 
other historical sites, many of which have African-American 
significance, throughout downtown Vicksburg.
    Both the Vicksburg Riverfront and the Cultural Landscape Study 
issued by the National Park Service Rivers, Trails, and Conservation 
Assistance Program (1982) and the Chadbourne Study (1993) cite the need 
for the linkage between the Vicksburg National Military Park and the 
historic district as a means of enhancing economic development of the 
downtown area. Acquisition of Pemberton's Headquarters by the National 
Park Service would have significant economic impact on the City of 
Vicksburg. The park currently attracts up to 1.2 million visitors a 
year, most of who do not venture into the city's downtown historic 
district where they can visit museums, antebellum tour homes, shops, 
restaurants, and hotels. This will spur economic development and create 
new jobs in an array of businesses that hire mainly minorities 
employees.
    Acquisition of Pemberton's Headquarters by the National Park 
Service has long been the desire of the Mayor and Board of Alderman of 
Vicksburg and the Warren County Board of Supervisors and the State 
Historic Preservation Office, who is represented here today by Kenneth 
H. P'Pool Deputy State Preservation Officer for Mississippi and 
Director of the Historic Preservation Division of the Mississippi 
Department of Archives and History. The Honorable Robert M. Walker, 
former Mayor of Vicksburg, voiced his strong interest in the National 
Park Service acquiring the Pemberton's Headquarters, that it may serve 
as the catalysis for the establishment of a United States Colored 
Troops National Research Center in the nearby Southern Heritage 
Cultural Center. The current mayor, the Honorable Laurence Leyen 
supports this idea as well. In addition to this, H.R. 3307 has the 
support of the entire Mississippi Congressional Delegation.
    The interest of Vicksburg/Warren County as well as those of the 
nation would be well served in the acquisition, restoration, and 
operation of the Pemberton's Headquarters by the National Park Service.
    Mr. Chairman, in closing, it is important to note that the funds 
necessary to facilitate the start of this project, the acquisition and 
minimum restoration, have already been appropriated in the Fiscal Year 
2002 Department of the Interior and Related Agencies Appropriations Act 
(House Report 107-234). Under last year's act, $500,000 was dedicated 
to this project and it is my understanding that modest future funds 
will be required to complete the restoration and to cover annual 
maintaining and operating cost.
    Again Mr. Chairman, I urge the Committee to support H.R. 3307. That 
concludes my statement.
                                 ______
                                 
    Mr. Radanovich. Thank you very much, Congressman Thompson.
    Next up to speak on H.R. 3718, a bill to authorize right-
of-way through the Joshua Tree National Park, and for other 
purposes, the Honorable Mary Bono, District 44 of California. 
Welcome, Mary.

 STATEMENT OF THE HON. MARY BONO, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF CALIFORNIA

    Mrs. Bono. Thank you, Mr. Chairman. I would like to thank 
you for holding a hearing on this bill, H.R. 3718, the Little 
San Bernardino Mountains Right-of-Way Act.
    In 1986, R Group Broadcasting, a locally owned and operated 
company, purchased land for a tower facility located on Indio 
Hills, adjacent to what was then Joshua Tree National Monument 
and is now Joshua Tree National Park. An access road of seven-
tenths of a mile long going through the monument area, zoned as 
wilderness, was already present. In 1987, as R Group began to 
make improvements to the road to better access their 
transmissionsite, they were informed by then-Superintendent 
Rick Anderson that they could not continue with their 
improvements on the wilderness section of the road.
    After negotiating with Superintendent Anderson, R Group 
received approval by the superintendent for use of the road on 
the condition of installing a gate, maintaining the road, and 
running public service announcements for Joshua Tree. For all 
intents and purposes, R Group believed it had legal access to 
their transmissionsite.
    However, approximately 10 years later, in 1997, the new and 
current superintendent, Ernest Quintana, informed R Group they 
had no such right because Superintendent Anderson did not have 
authority to grant a right-of-way. Other options, such as 
access by pack mule or admittance through another direction, 
were not feasible or permitted under law.
    After months of work, it was determined that the Secretary 
of the Interior needed congressional authorization to grant a 
right-of-way for this seven-tenths of a mile. Therefore, as I 
did during the successful process of constructing the Santa 
Rosa and San Jacinto National Monument legislation, I brought 
together Superintendent Quintana and representatives of the 
Park Service, along with the owners of the radio station, to 
find a fair and equitable solution.
    According to the Park Service, the additional impacts to 
this road would be minimal, so, therefore, as long as fair 
compensation would be made, they urged and supported granting a 
right-of-way by congressional action.
    R Group, through its two radio stations in the Cochella 
Valley, plays a vital role in our community. In addition, they 
have been very good stewards of this land and have every 
intention to continue in this very same spirit. So while I am 
not a proponent by any means of creating roads through 
wilderness, I believe the existence of the road during purchase 
of the land and the short length of it warrant consideration.
    I realize this is a unique circumstance and, therefore, 
look forward to working with the Committee and the Park Service 
and other environmental interests on improving this 
legislation. For instance, we could consider adding a 
reasonable and comparable section of wilderness owned by R 
Group in this vicinity. This could provide additional 
protection for an area all of us in Southern California cherish 
and is a win-win for all parties. I am also willing to 
entertain other sensible additions to this legislation.
    Again, thank you very much for consideration of H.R. 3718, 
and I look forward to a continued dialog with you, Mr. 
Chairman, as well as both sides of the aisle, to bring closure 
to this long and protracted situation.
    Thank you.
    [The prepared statement of Mrs. Bono follows:]

Statement of The Honorable Mary Bono, a Representative in Congress from 
                 the State of California, on H.R. 3718

    The Chairman.
    I would like to thank you for holding a hearing on my bill, H.R. 
3718, the Little San Bernardino Mountains Right-of-Way Act.
    In 1986, RM Group Broadcasting (then R Group Broadcasting), a 
locally owned and operated company, purchased land for a tower facility 
located on Indio Hills adjacent to what was then Joshua Tree National 
Monument and now is Joshua Tree National Park. An access road 7/10ths 
of a mile long going through the Monument area zoned as wilderness was 
already present. In 1987, as RM Group began to make improvements to the 
road to better access their transmission site, they were informed by 
then Superintendent Rick Anderson that they could not continue with 
their improvements on the wilderness section of road. After negotiating 
with Superintendent Anderson, RM Group received approval by the 
Superintendent for use of the road on the condition of installing a 
gate, maintaining the road and running public service announcements for 
Joshua Tree. For all intents and purposes, RM Group believed it had 
legal access to their transmission site.
    However, approximately ten years later, in 1997, the new and 
current Superintendent, Ernest Quintana, informed RM Group they had not 
such right because Superintendent Anderson did not have authority to 
grant a right of way. Other options, such as access by pack mule or 
admittance through another direction, were not feasible or permitted 
under law.
    After months of work, it was determined that the Secretary of the 
Interior needed Congressional authorization to grant a right of way for 
this 7/10ths of a mile. Therefore, as I did during the successful 
process of constructing the Santa Rosa and San Jacinto National 
Monument legislation, I brought together Superintendent Quintana and 
representatives of the Park Service, along with the owners of the radio 
station, to find a fair and equitable solution. According to the Park 
Service, the additional impacts to this road would be minimal so 
therefore, as long as fair compensation was made, they urged and 
supported granting a right-of-way by Congressional action.
    RM Group, through its two radio stations in the Coachella Valley, 
plays a vital role in our community. In addition, they have been good 
stewards of this land and have every intention to continue in this same 
spirit. So, while I am not a proponent of creating roads through 
wilderness, I believe the existence of the road during purchase of the 
land and the short length of it warrant consideration.
    I realize this is a unique circumstance and therefore look forward 
to working with the committee and the Park Service on improving this 
legislation. For instance, it has been suggested that we consider 
adding a reasonable and comparable section of wilderness owned by RM 
Group in this vicinity. This could provide additional protection for an 
area all of us in Southern California cherish and is a win-win for all 
parties. I am also willing to entertain other sensible additions to my 
legislation.
    Again, thank you for your consideration of H.R. 3718 and I look 
forward to a continued dialogue to bring closure to a long and 
protracted situation.
                                 ______
                                 
    Mr. Radanovich. Thank you, and thanks to all three of you 
for your testimony. You are welcome to join us on the dais as 
we introduce the next panel to hear these bills. Thank you very 
much.
    Mr. Radanovich. The next panel is Mr. Peter Culp, Assistant 
Director of Minerals, Realty and Resource Protection from the 
Bureau of Land Management, and Mr. Durand Jones, Deputy 
Director of the National Park Service.
    Welcome, gentlemen. Mr. Culp, if you would like to begin 
your testimony, you are here to speak on H.R. 3258, which is 
Congresswoman Cubin's bill, and it is so long, I am not going 
to repeat it. But I am sure you know what the subject matter 
is. Go ahead.

 STATEMENT OF PETE CULP, ASSISTANT DIRECTOR, MINERALS, REALTY 
AND RESOURCE PROTECTION, BUREAU OF LAND MANAGEMENT, WASHINGTON, 
                              D.C.

    Mr. Culp. Thank you, Mr. Chairman and members of the 
Committee. I appreciate the opportunity to appear here today to 
discuss H.R. 3258.
    The Department is committed to working with our 
stakeholders and with the Congress to ensure that right-of-way 
rental fees on public lands are appropriate and fair, and that 
there is certainty in right-of-way rental fee valuation. We 
believe that the existing land-based linear right-of-way rental 
fee schedule established by regulations in 1986 and the rental 
fee schedule for nonlinear communications facilities right-of-
ways established by separate regulations in 1995 can continue 
to be an appropriate basis for the derivation of right-of-way 
rental fees, with appropriate annual adjustments for inflation.
    I want to emphasize that the 1986 schedule is a land-based 
schedule, that is, it determines a rental fee that starts with 
the value of the land, and that is the same principle that 
Congresswoman Cubin spoke about just a few minutes ago, as 
opposed to some other interpretation of fair market value. So 
the underlying principle is the same.
    We are concerned that the proposed bill would require a 
more time-consuming, multiple-appraisal process for each right-
of-way before its issuance or renewal, and would establish a 
different standard for rental fees for rights-of-ways under 
FLPMA as opposed to the other kinds of rights-of-ways that we 
issue under the Mineral Leasing Act that primarily involve oil 
and gas pipelines. Also, we have a concern that the bill could 
delay rather than expedite the processing of right-of-ways 
authorized by FLPMA, especially electric transmission lines, 
and that is, again, a reflection on the complexity of having to 
do three appraisals and then determining the lowest of the 
three.
    We recognize that the rental fee issue can be and has very 
much been a contentious issue for at least the last 2 years. We 
and the Forest Service have engaged in dialogs with our 
stakeholders, appraisal organizations, interest groups and 
industry on the subject of rental fees. We are definitely 
interested in continuing to work with all of our stakeholders 
and the Congress to ensure fairness and certainty in right-of-
way rental fees on public lands.
    We do administer a large number of rights-of-ways, 63,000 
under FLPMA and 24,000 under the Mineral Leasing Act. The 
Forest Service administers approximately 24,000 FLPMA right-of-
ways and 1,000 Mineral Leasing Act right-of-ways. These rights-
of-ways, of course, often cross both Federal lands and private 
and State lands.
    Prior to 1986, we did use an appraisal process, but then we 
adopted the current land-based schedule primarily as a method 
of efficiency for setting the rental fees, and I won't go into 
how the schedule works because that is covered in my testimony 
for the record. But it is land-based.
    We did have audits in 1995 and 1996 which questioned 
whether we were obtaining fair market value, and those did lead 
to some proposals to do market studies that the Congress was 
concerned about, and, in fact, there was language in the 2001 
appropriations which told us not to do that. And, again, I want 
to emphasize that that is not the direction we propose to go at 
this point unless it was the consequence of a lot more 
discussion with our stakeholders and the Congress.
    So just to repeat in the few seconds that I have left, the 
concern here is with the complexity of the three-appraisal 
process and the time that would be required to implement it. 
And we very much want to continue the dialog with our 
constituents and the Congress on this process. We appreciate 
the opportunity to be here today.
    [The prepared statement of Mr. Culp follows:]

Statement of Pete Culp, Assistant Director, Minerals, Realty & Resource 
          Protection, Bureau of Land Management, on H.R. 3258

    Mr. Chairman and members of the Committee, thank you for the 
opportunity to appear here today to discuss the methodology by which 
the Secretaries of Interior and Agriculture determine the fair market 
value of rights-of-way (ROW), and to present the Department of the 
Interior's views on H.R. 3258, the ``Reasonable Right-of-Way Fees Act 
of 2001.''
    The Department is committed to working with our stakeholders and 
Congress to ensure that ROW rental fees on public lands are appropriate 
and fair, and that there is certainty in ROW rental fee valuation. We 
believe that the existing land-based linear ROW rental fee schedule 
established by regulations in 1986 and the rental fee schedule for 
nonlinear communication facility ROW established by regulations in 1995 
can continue to be an appropriate basis for derivation of ROW rental 
fees, with periodic adjustments for inflation.
    The Department is concerned that the proposed bill would not allow 
for fair market value rates of return for rights-of-way on the public 
lands as required by the Federal Land Policy and Management Act 
(FLPMA); would require a time-consuming, multiple appraisal process for 
every ROW before issuance or renewal; and would establish a different 
standard for establishing rental fees for rights-of-way authorized by 
FLPMA (generally involving roads, electrical transmission lines, and 
telecommunication facilities) and rights-of-way authorized by the 
Mineral Leasing Act (which primarily involve oil and gas pipelines). In 
addition, we believe that this bill may be inconsistent with the goals 
of the Department in that it would delay, rather than expedite, the 
processing of ROWs authorized by FLPMA, especially electric 
transmission lines.
    The Department realizes that ROW rental fees can be a contentious 
issue. For at least the last two years, the Bureau of Land Management 
(BLM) and the Forest Service (FS) have engaged in dialogues with our 
stakeholders, including appraisal organizations, ROW interest groups 
and industry, on the subject of linear right-of-way rental fee issues. 
The BLM and the FS also worked with industry and the congressionally-
established Radio and Television Use Fee Advisory Committee to finalize 
regulations in 1995 for rental fee schedules for nonlinear rights-of-
way for various communication facilities on the public lands. As 
mentioned, the Department is committed to continuing to work with our 
stakeholders and Congress to ensure fairness and certainty for ROW 
rental fees on public lands.
                        rights-of-way background
    BLM and FS lands are managed for a variety of multiple uses, 
including the location of ROWs that are a vital part of our nation's 
infrastructure for telecommunications purposes and for the delivery of 
critical energy supplies. This ROW infrastructure is a significant 
component of our nation's interstate commerce, as well as our national 
defense and homeland security. Due to our nation's increasing demand 
for energy, the need for energy-related ROWs also will increase.
    The BLM processes approximately 6,000 right-of-way (ROW) actions 
each year, including the issuance of 2,700 ROW grants and amendments. 
Currently, the BLM administers approximately 63,000 ROWs authorized 
under FLPMA and 24,000 ROWs authorized under Mineral Leasing Act. The 
FS, meanwhile, administers approximately 24,000 FLPMA ROWs and 1,000 
MLA ROWs on Forest land. Both BLM and FS right-of-ways also cross state 
and other non-federal landowners. Of the total BLM authorized ROWs, 
about 21,000 FLPMA and 23,000 Mineral Leasing Act ROWs are currently 
subject to the collection of rents. The remaining ROW authorizations 
are not subject to rent, either due to statutory exemptions or because 
they meet other rent reduction regulatory criteria.
                          rights-of-way rents
    Prior to 1986, the BLM and FS carried out their respective 
responsibilities for collecting market rent from ROW users by making 
appraisals for each separate ROW. In order to reduce overall 
administrative costs, and to make ROW processing more timely and 
consistent, the BLM and FS in 1986 established the linear ROW rent 
schedule that is still in use today.
    The current linear ROW rental schedule is based on the following 
three factors:
        1) LAn average land value for the linear ROW facility, using 
        county boundaries and zones (based on market data in 1986, each 
        county in the lower forty-eight states was placed in one of 
        eight land valuation categories or zones);
        2) LAn impact adjustment factor of either 80% (generally for 
        roads and oil and gas pipelines) or 70% (generally for electric 
        transmission and telecommunication lines) based on the type of 
        linear ROW facility to be authorized; and
        3) LAn interest rate (6.41%) for converting the land value to a 
        dollar-per-acre annual rental for each land value zone.
    In addition, the current linear ROW rental schedule has been 
adjusted annually since 1986 using the annual percentage change in the 
Implicit Price Deflator, Gross National Product Index (IPD). Proposals 
to Revise Current Linear ROW Rent Schedule
    The BLM and FS implementing regulations of 1986 state ``that at 
such time that the cumulative change in the IPD index exceeds 30% .... 
the zones and rental per acre figures shall be reviewed to determine 
whether market and business practices have differed sufficiently from 
the index to warrant a revision in the base zones and rental per acre 
figures.'' This threshold was exceeded in 1995 and the cumulative 
change in the IPD index now stands at 45% for calendar year 2002.
    A 1995 Department of the Interior's Office of the Inspector General 
report (Audit No. 95-1-747) and a 1996 General Accounting Office report 
(GAO/RCED-96-84) indicated that the linear rent schedule used by BLM 
and the FS at the time of the audits did not reflect fair market value. 
These findings prompted the BLM and the FS to begin to engage in 
discussions regarding the rent schedule values. These discussions have 
most recently involved a December 2001 workshop sponsored by the 
Appraisal Institute that involved the BLM, FS, industry and other 
interest groups, and congressional staff. Any further efforts by the 
BLM and the FS to continue any fair market value studies regarding 
linear rights-of-way are currently on hold pending additional dialogue 
with our stakeholders and Congress.
                               h.r. 3258
    The Department's concerns regarding the legislation generally 
center on its elimination of the existing linear rental fee schedule 
(1986) and the communication facilities ROW rental fee schedule (1995), 
and the requirement that time-consuming and costly multiple appraisals 
be completed for every ROW before issuance or renewal. The legislation 
also would establish an inconsistent process to determine rental fees 
for FLPMA rights-of-way different than rental fees for Mineral Leasing 
Act rights-of-way.
    The bill requires the BLM and FS to conduct three valuations to 
determine the value for FLPMA rights-of-way. First, the agencies would 
be required to do an appraisal of the lands crossed by a proposed ROW 
use. Second, another appraisal would be conducted to determine the loss 
of value in the lands crossed by the proposed use. Third, a reclamation 
plan for the project would have to be conducted to determine the costs 
to be incurred at the end of the grant term. Only after these three 
valuations are completed, and the lowest amount is determined, will 
involved Federal agencies be able to establish the rental for a FLPMA 
ROW.
    The administrative costs to process an application and the multiple 
appraisals would be extraordinary--potentially increasing several fold. 
Also, for lengthy linear ROW projects, it will be especially 
problematic to determine the current values of the multiple parcels of 
land that a ROW crosses. The costs of these additional appraisals 
inevitably will be passed on to ROW applicants as part of the Federal 
Government's costs in processing a ROW. Such timely and costly 
impediments to ROW processing are inconsistent with the Department's 
goal to expedite the processing of rights-of-way--especially energy-
related rights-of-way.
    The Department wishes to continue to engage in discussions with all 
interested parties, including Congress, to ensure that ROW fee 
schedules for BLM and FS lands are consistent, fair and promote timely 
consideration of ROW applications.
                               conclusion
    Mr. Chairman, thank you for the opportunity to testify before you 
today. I would be pleased to answer any questions that you or the other 
members of the Subcommittee may have.
                                 ______
                                 
    Mr. Radanovich. I think in the order of the hearing, we are 
going to take questions on this single bill, and then move to 
Mr. Jones on the two remaining bills first. So I am going to 
defer on any questions right now, but would defer to Mrs. 
Christensen to begin questioning, if you have any questions.
    Mrs. Christensen. Thank you, Mr. Chairman.
    Mr. Culp, with the GAO and inspector general reports 
showing that the agencies are not receiving fair market value, 
why has it taken 6 years, over 6 years for the BLM and Forest 
Service to reach an agreement as to how to correct this 
situation?
    Mr. Culp. I think that there is an awful lot of room for 
very reasonable people to disagree on what fair market value is 
and what the underlying basis for it should be. And that has 
led to this relatively long period of rather contentious 
debate--
    Mrs. Christensen. Very long.
    Mr. Culp. --about what these fees should be.
    Mrs. Christensen. It just seems like an inordinately long 
period of time and that someone should have made a decision at 
some point to move ahead.
    How do the right-of-way fees charged by BLM and the Forest 
Service compare with those charged by State and private 
landowners?
    Mr. Culp. The reference point would have to be the studies 
done by GAO and the inspector general. In most of their 
examples in their studies, they concluded that the fees charged 
by private landowners and by States were higher than the 
Federal fees. There were a few examples that worked the other 
way, but most--
    Mrs. Christensen. Were the State fees generally lower than 
private fees?
    Mr. Culp. I don't know the answer to that. We could check 
to see if the data is differentiated--it is differentiated that 
way. I just don't know the answer offhand, but I could get it 
for you.
    Mrs. Christensen. I would appreciate that. I would like to 
know the answer to that.
    Mr. Culp. All right.
    Mrs. Christensen. If it is OK with you, Mr. Chair.
    Mr. Radanovich. Yes.
    Mrs. Christensen. Thank you. I don't have any other 
questions.
    Mr. Radanovich. Thank you, Mrs. Christensen.
    If there is no objection, shall I defer to Mrs. Cubin. 
Barbara?
    Mrs. Cubin. Thank you, Mr. Chairman, and thank you to the 
Committee for--
    Mr. Radanovich. You are very fortunate that you were able 
to jump ahead of all of them.
    Mrs. Cubin. I really am, and I won't forget it, guys.
    [Laughter.]
    Mrs. Cubin. Mrs. Christensen, I wanted to answer one of the 
questions you asked, whether or not the Federal land right-of-
way fees were higher or lower than private. Well, usually what 
happens in a private situation, the company buys the right-of-
way, so it is a one-time payment. In the public lands, it is an 
annual fee. So it is really hard to compare whether it is more 
or less, but usually, you know, it is a much higher price at 
one time because it is a one-time event.
    Mrs. Christensen. If I may ask, and the States, do the 
States charge a fee?
    Mrs. Cubin. Yes, they do, and I think it just depends on 
where you are how the fee relates to the Federal fee.
    The reason I bring this bill is that what we are talking 
about are existing right-of-ways and wanting to be able to 
develop with telecommunications and pipelines and whatnot, 
develop areas all across the country. And so I am very happy, 
Mr. Culp, with the statement that you made at the very end that 
the only problem you have with the bill is the complicated 
process of the three different appraisals, because the intent 
of the bill is not to require three different appraisals, but 
to allow the BLM and the Forest Service to use any one of those 
three appraisals. And if we have not worded it well, we can 
reword that.
    I would suspect while it says ``or the lowest of the 
appraisals,'' that it would be the company that would pay for 
additional appraisals if they thought the method that was used 
in determining the fee was too high. So it would not require 
three appraisals by the Government to take care of that. 
Actually, what my bill does is it just says do what is on the 
books now.
    And another point that I would like to make, I think that 
your agency--in your testimony you note that your own 
regulations require you to adjust the base zones and rental per 
acre fees when cumulative changes exceed 30 percent. And I 
think that is reasonable. But I am aware that the Forest 
Service and the BLM policies that were implemented over the 
last 2 years increased these fees without adjusting the rental 
per acre fee. And in one case, when the pipeline--it was for 
fiber optics. When the pipeline was going down--it wasn't the 
pipeline that the fee was charged on. It was every single fiber 
that went through the pipe that was being charged.
    And I don't think anyone can construe fair market value for 
right-of-ways to be based on what the commodity or what the 
infrastructure is used for. And so if telecommunications make a 
lot of money because they have more fibers going through there, 
one company shouldn't be paying more for crossing the same land 
than another. And that is the reason for this bill.
    You said that you didn't do that anymore, but I would like 
you to reassure me, in more than an offhanded way, that it 
won't be done, whether or not this bill passes, which I fully 
expect it will at some point.
    Mr. Culp. Well, certainly I know that there was one--at one 
time there was a proposal for charging for individual fibers--
or bundles of fibers, it might have been. We are not talking in 
those terms--
    Mrs. Cubin. Anymore.
    Mr. Culp. --at all anymore. I absolutely agree with your 
comment on the effect of that. It doesn't affect the land any 
differently. These are very small things.
    Mrs. Cubin. Right. And the only--I mean, the situation is 
that across rural areas, you dig a hole in the ground, put the 
line in, cover it up, and 3 weeks later there is no evidence 
that it is even there.
    You are aware, I am sure, of the case in New Mexico where a 
project was going to cross a very rural area, one of the most 
depressed economies in the State, and the project did not move 
forward because of the enormous fees that were going to be 
charged for the right-of-way, and it was based on the single-
strand situation.
    So I look forward to working with you, Mr. Culp, and the 
administration on making the language more clear so that it 
will be clear that all three appraisals are not required, that 
we just stick to fair market value.
    Thank you.
    Mr. Culp. We look forward to that, too, Madam Chairman.
    Mrs. Cubin. Thank you, Mr. Chairman.
    Mr. Radanovich. Mr. Duncan?
    Mr. Duncan. Thank you, Mr. Chairman.
    Mr. Culp, how much does the BLM or how much does the 
Federal Government take in on these fees right now in total?
    Mr. Culp. In Fiscal Year 2000, we took in $13,374,000 for 
FLPMA right-of-ways and just under $2 million for the Mineral 
Leasing Act right-of-ways. Again, that is the oil and gas 
pipelines, which are under a different law.
    Mr. Duncan. And how much do you estimate that these 
proposed increases will increase these fees? I understand that 
there is at least one estimate that says that they may increase 
by as much as 100 times. And if they increase anything like 
that, I mean, you have got serious problems. And, you know, 
most of these increases, businesses have to pass them on to the 
consumer.
    Mr. Culp. If we took an approach to fair market value, 
which in my kind of layman's terms would be get everything that 
you can get because somebody has to get across your property to 
complete a project, you could get results like that. But, 
again, we are very much in agreement that the basis for the fee 
ought to be the value of the land. Most of our land is rural, 
and the values are not that high. So nothing that is on the 
table now would result in a 100-times-fee increase. Nothing 
like that.
    Mr. Duncan. Well, you say at one point you could get 
results like that, but then you say that you wouldn't. To 
businesses, those types of increases, I don't know how any 
business could absorb those kinds of increases.
    Let me ask you this: The later testimony by Mr. Eric Myers, 
at one point he says that the methodologies proposed by the BLM 
and USFS are inconsistent with current regulations and policies 
applied to other infrastructure providers. And then at a later 
point he says, ``The approach taken by Federal agencies focuses 
on situations where cities or other entities have incorporated 
franchise-like fees into required easement payments or where 
individual landowners have leveraged their ability to hold out 
or obstruct established rights across adjacent lands. These 
cases are exceptional and should not alter the established 
principles which base easement payments on the underlying 
property value.''
    What do you say in response to those comments by Mr. Myers?
    Mr. Culp. I would say that we agree that the payments 
should be based on the underlying property value. We now agree. 
Some of the earlier proposals that were being talked about 
would have been based on a different approach and resulted in 
considerably higher rental fees.
    Mr. Duncan. What do you say when he says that the proposals 
that you are making are inconsistent with current regulations 
and policies applied to other infrastructure providers?
    Mr. Culp. Well, the Department's position really goes back 
to current regulations now. Our position is that the current 
regulations are a reasonable basis for the fee.
    Mr. Duncan. All right. Thank you very much.
    Mr. Radanovich. Does anybody else wish to speak? Mr. 
Gibbons?
    Mr. Gibbons. Thank you, Mr. Chairman. I have just one 
clarifying question I would like to ask Mr. Culp, and that is, 
if you will confirm for me today that current policy now of 
your agency is to evaluate these rights-of-ways based on the 
linear foot rental fee, or whatever determination that may be, 
linear length, versus the throughput. That is the way you are 
valuating it today. is that correct?
    Mr. Culp. That is correct, Mr. Gibbons, because it is based 
on converting the width of the right-of-way to acres and has 
nothing to do with the amount of throughput that you could put 
through the electric line or the fiber-optic cable.
    Mr. Gibbons. And that is the current status of your 
regulations?
    Mr. Culp. That is the current status.
    Mr. Gibbons. That is the only question I had, Mr. Chairman. 
Thank you.
    Mr. Radanovich. Thank you very much.
    Mr. Culp, if I may ask a couple of questions. On these 
transmission lines that we are talking about in general, that 
is for both telephone and telecommunications data transfer, all 
of the above--isn't it?--for phone companies?
    Mr. Culp. That is correct. It even--
    Mr. Radanovich. And gas.
    Mr. Culp. It actually even goes to canals. Any linear 
right-of-way.
    Mr. Radanovich. And as far as telecommunications, you know, 
obviously these lines would serve urban areas. But would the 
preponderance of these easements serve rural America? Can you 
say that, or is it basically for access to both urban and 
rural?
    Mrs. Cubin. Will the gentleman yield?
    Mr. Radanovich. Sure.
    Mrs. Cubin. Well, basically because the BLM lands are 
mostly in rural areas, it would mostly affect rural areas.
    Mr. Radanovich. Right. I live in a very rural area, and 
when you dial up the phone, you have got to wait 30 seconds for 
them to hook into somewhere before you get a ring. And I know 
that that is kind of a problem in most of rural America, 
getting some of these high-technology communications abilities 
out into the rural areas. Just keep that in mind when you are 
looking at assessing fees that might further hinder the 
progress of delivery of this telecommunications to rural 
America.
    Mr. Culp. I agree, Mr. Chairman, that is a real issue.
    Mr. Radanovich. OK. Thank you, Mr. Culp.
    Mr. Jones? Randy, I believe it is. Randy, good to have you 
here with us. Before you begin your testimony on these other 
bills, I do have a little bit of business here, if you don't 
mind. It concerns an issue that we are waiting to hear back 
from the National Park Service regarding the Washington 
aqueduct in a previous hearing. It was October 30th of last 
year. We had hearings on the effects of the Washington aqueduct 
discharge upon the C&O Canal National Historic Park. And on 
November 27th, I wrote a letter to the Park Service with some 
follow-up questions that haven't been answered yet. So I would 
really appreciate your answers to those questions, and as 
quickly as possible. Both the EPA and the Army Corps have 
answered their questions. I am still waiting on you guys.
    Mr. Jones. I understand, Mr. Chairman, and we apologize for 
that. I do know in the last 2 weeks there have been a series of 
meetings with our regional folks, the solicitor's office, as 
the answers are being developed. So we will have them to you 
very shortly.
    Mr. Radanovich. Great. I appreciate that.
    Now, if you will go ahead and begin your testimony, I 
believe you are here to speak on the other two bills, which 
would be H.R. 3307 and H.R. 3718.

   STATEMENT OF DURAND JONES, DEPUTY DIRECTOR, NATIONAL PARK 
                   SERVICE, WASHINGTON, D.C.

    Mr. Jones. Thank you, Mr. Chairman. I do ask that both my 
statements be submitted in their entirety for the record, and I 
would be happy to summarize them.
    Mr. Radanovich. There being no objection, so ordered.
    Mr. Jones. Thank you for the opportunity to present the 
Department of Interior's views on H.R. 3718, a bill to 
authorize a right-of-way through Joshua Tree National Park.
    The Department supports this bill if amended to address the 
administration's concerns.
    The legislation will authorize a right-of-way for an 
existing road through Joshua Tree National Park for vehicle 
access to RM Broadcasting's telecommunication tower site 
located outside the park. The right-of-way is located in the 
rugged southwestern portion of the park known as the Little San 
Bernardino Mountains. The remoteness of this area attracts few 
visitors; however, Congress did designate this portion of the 
part as wilderness in 1976.
    In 1987, R Group Management entered the park without 
authorization to grade a road on National Park Service land. In 
compliance with the Wilderness Act, the current superintendent 
has prohibited continued vehicle access on this route.
    This legislative solution to authorize the right-of-way is 
preferable to eliminating seven-tenths of a mile of the road 
and requiring the construction of a new road outside the park. 
To that end, I would add that this is, we think, a fairly 
unique situation because what in one regard might be an obvious 
solution, which would be to close the park, have them relocate 
the road outside the park, we feel from an overall 
environmental point of view would result in total worse damage 
to the environment than just allowing this right-of-way to be 
recognized. The construction of a new road outside the park 
would further impact the surrounding environment.
    We will have a series of recommended amendments to you 
within the next few days. As we were preparing for this 
hearing, the Department of Justice requested additional time to 
review the amendments as we had drafted them, and we, in fact, 
have a meeting with the Justice Department officials on Monday 
to review the issues involved in this case.
    But, generally, the amendments that we would be proposing: 
one, ensure that the National Park Service would retain the 
authority to manage parklands and protect park resources; allow 
for an annual fee for the use of the right-of-way; and also 
allow the Secretary to ensure that the use of the right-of-way 
is consistent with National Park Service regulations and to 
collect appropriate compensation for the unauthorized entry and 
resource damage that has occurred from this entry.
    In addition, the Department does recommend that Congress 
incorporate a provision to address a no net loss of wilderness. 
We have had some discussions with the staff on that issue, and 
there are several ways of addressing it. But our concern in 
this area is that if we are, in fact, recognizing that a small 
portion of the park no longer has wilderness values, we think 
that there are alternate lands that could be designated 
wilderness so that there is no net loss of designated 
wilderness within the park.
    That does conclude my statement on that. I would be happy 
to move on to the other bill, or would you prefer to address 
questions on this one first? I serve at your pleasure.
    Mr. Radanovich. If you would make your statement on both 
bills, that would be just fine, if you want to proceed with 
that.
    Mr. Culp, you are free to go since we have discussed the 
bill that you were here for. Thank you for being here, and you 
are more than welcome to stay. But I want to give you the 
opportunity to leave.
    Mr. Jones?
    Mr. Jones. I also thank you for the opportunity to present 
the Department's views on H.R. 3307, which would authorize the 
Secretary of the Interior to acquire the property known as 
Pemberton's Headquarters and modify the boundary of Vicksburg 
National Military Park to include the property.
    The Department supports H.R. 3307. Pemberton's Headquarters 
is a nationally significant resource that is well suited for 
use as a visitor site and its inclusion within the National 
Park System unit.
    The headquarters is the building that Confederate 
Lieutenant General John C. Pemberton occupied during the siege 
of Vicksburg during the Civil War, and it served as the 
Confederacy--excuse me, sir. And that particular battle was 
viewed as especially significant because it severed the 
Confederacy geographically and cut vital supply lines to the 
Confederate States and, thus, was pivotal in bringing about the 
conclusion of the war.
    The national significance of Pemberton's Headquarters was 
recognized through its designation as a National Historic 
Landmark in 1976. Why this is especially timely is that while 
this particular site has been talked about and recommended 
since 1895 for protection inclusion as a unit of the National 
Park System, we now have an owner who is very much a willing 
seller and is desirous to protect the importance and the 
significance of this site. And funding has already been 
included for the acquisition of this property in the 2002 
fiscal year budget to be spent pending completion of 
authorizing legislation.
    In the interest of time, I will--oh, one last thing. H.R. 
3307 includes language that would authorize the Secretary of 
the Interior to acquire less than one acre of additional land 
in the environs of Pemberton's Headquarters to use as off-
street parking as well as to provide appropriate administrative 
facilities for park personnel to serve and protect this 
particular resource.
    Mr. Chairman, that concludes my formal statements. I would 
be happy to answer any questions you may have.
    [The prepared statements of Mr. Jones follow:]

Statement of Durand Jones, Deputy Director, National Park Service, U.S. 
                Department of the Interior, on H.R. 3307

    Mr. Chairman, thank you for the opportunity to present the 
Department of the Interior's views on H.R. 3307, which would authorize 
the Secretary of the Interior to acquire the property known as 
Pemberton's Headquarters and to modify the boundary of Vicksburg 
National Military Park to include that property.
    The Department supports H.R. 3307. Pemberton's Headquarters is a 
nationally significant resource that is well-suited for use as a 
visitor site, and its inclusion in Vicksburg National Military Park 
would enable the National Park Service to add an important dimension to 
the interpretation of Civil War and post-Civil War events in the 
Vicksburg area. The addition of Pemberton's Headquarters would entail 
acquisition, preservation, and operating costs that are described later 
in this testimony.
    Pemberton's Headquarters is the building that Confederate Lt. 
General John C. Pemberton occupied during the siege of the city of 
Vicksburg led by Union Major General Ulysses S. Grant from May 19 to 
July 4, 1863. It was in this building that Pemberton held a council of 
his chief officers on July 3, 1863 to discuss plans for surrender of 
the city, which occurred the following day. The campaign for Vicksburg 
is considered by many military historians to have been the most 
critical campaign of the Civil War, as it severed the Confederacy 
geographically and cut vital supply lines to the Confederate states and 
thus was pivotal in bringing about the Confederacy's defeat.
    The national significance of Pemberton's Headquarters was 
recognized through its designation as a National Historic Landmark in 
1976. The building, which was constructed from 1834-1836, is located in 
Vicksburg's historic district. It is adjacent to Balfour House, which 
served as the headquarters for the Union occupation forces following 
the surrender and is open to the public. And, it is four blocks from 
the historic Warren County Courthouse, where the military 
administration of the occupied city was conducted through 
Reconstruction. A visitor site at this location would give the National 
Park Service the opportunity not only to expand its interpretation of 
the siege of Vicksburg, but also to interpret historical events in the 
years immediately following the Union victory there. It would help the 
service fulfill legislation passed by Congress in 1990 calling on the 
park to ``interpret the campaign and siege of Vicksburg from April 1862 
to July 4, 1863, and the history of Vicksburg under Union Occupation 
during the Civil War and Reconstruction.''
    Acquisition of Pemberton Headquarters for inclusion in Vicksburg 
National Military Park would also fulfill the vision of the Union and 
Confederate veterans who, in 1895, petitioned Congress to establish a 
national military park at Vicksburg similar to those previously 
established at Chickamauga and Chattanooga, Antietam, Shiloh, and 
Gettysburg. Those veterans recommended that the headquarters of both 
Union and Confederate commanders be included in the park. However, 
while the site of Grant's headquarters was included in the park, that 
of Pemberton's was not due to the objections of the then-owner of the 
property. The current owner, who has used the building for a bed-and-
breakfast in recent years, would now like to sell the property to the 
National Park Service so that its place in history will be secure.
    As you know, the Department is committed to the President's 
priority of eliminating the National Park Service's deferred 
maintenance backlog and is concerned about the development and life-
cycle operational costs associated with expansion of parks already 
included in the National Park System. With that in mind, we have some 
concerns about the ability of the National Park Service to assume the 
costs of acquiring, preserving, and operating the Pemberton 
Headquarters property within current budget constraints.
    The National Park Service does not yet have an appraisal of the 
property, but the agency's land acquisition experts believe that it may 
cost around $600,000 to acquire. The Service also does not have an 
estimate of the cost of preserving the building and the grounds and 
making the site accessible to visitors. Stabilizing the building alone 
would cost an estimated $228,000, but the cost of more extensive 
preservation would need to be determined through studies. Those studies 
would cost an estimated $191,000. The Service has made a preliminary 
estimate that the cost of operating and maintaining the site would be 
approximately $425,000 annually, but actual costs would depend on a 
number of unknown factors, including the extent of preservation done on 
the site.
    H.R. 3307 includes language that would authorize the Secretary of 
the Interior to acquire less than one acre in the environs of 
Pemberton's Headquarters to use for off-street parking, as well as 
related visitor or administrative facilities. This is a provision that 
was recommended by the Department in testimony before the Senate Energy 
and Natural Resources Committee last year, as no off-street parking 
currently exists at the site. This would increase acquisition, 
development, and operational costs of the site.
    Mr. Chairman, that concludes my statement. I would be pleased to 
answer any questions you or other members of the Subcommittee may have.
                                 ______
                                 

Statement of Durand Jones, Deputy Director, National Park Service, U.S. 
                Department of the Interior, on H.R. 3718

    Mr. Chairman, thank you for the opportunity to present the 
Department of the Interior's views on H.R. 3718, a bill to authorize a 
right-of-way through Joshua Tree National Park, and for other purposes.
    The Department supports H.R. 3718 if amended to address the 
Administration's concerns. This legislation would provide the necessary 
legal authority for the right-of-way.
    The legislation will authorize a right-of-way for an existing road 
through Joshua Tree National Park for vehicle access to RM 
Broadcasting's telecommunication tower site located outside the park. 
The right-of-way is located in the rugged southwestern section of the 
park known as the Little San Bernardino Mountains. The remoteness of 
this area attracts few visitors; however, Congress designated this 
portion of the park as wilderness in 1976.
    The right-of-way is for an existing, unimproved, roadway that 
traverses approximately seven tenths of a mile through Joshua Tree 
National Park and park wilderness. In 1987, R Group Management (a 
predecessor to RM Broadcasting) entered the park without authorization 
to grade a road on National Park Service land. In compliance with the 
Wilderness Act, the current superintendent prohibited vehicular use of 
the road. Research found that even if the area was not designated 
wilderness, the National Park Service still lacked specific authority 
to allow this right-of-way.
    The legislative solution to authorize the right-of-way is 
preferable to eliminating seven tenths of a mile of the road and 
requiring the construction of a new road outside the park.
    The construction of a new road outside the park would further 
impact the surrounding environment and encumber RM Broadcasting.
    Generally the amendments would: (1) ensure that the National Park 
Service retains the authority to manage parklands and resources; (2) 
allow for an annual fee that may go beyond a simple calculation based 
on the Federal regulations governing the calculation of compensation 
for rights-of-way and that would take into consideration that existing 
Federal regulations and policy do not allow private businesses to 
obtain rights-of-way for road access in national parks; and, (3) allow 
the Secretary to ensure that use of the right-of-way is consistent with 
National Park Service regulations and to collect appropriate 
compensation for the unauthorized entry and resource damage.
    In addition to compensation, the Department recommends Congress 
incorporate a provision to address no net loss of wilderness area. As 
soon as the Administration completes its review of these amendments, we 
will transmit them to the subcommittee.
    This legislation would provide the needed legal authority for the 
right-of-way, and if amended, would further ensure that the resources 
of the park are protected against damage consistent with National Park 
Service regulations.
    This concludes my testimony. I would be glad to answer any 
questions you may have.
                                 ______
                                 
    Mr. Radanovich. I am going to defer any questions at this 
time, but I would like to ask Mrs. Christensen if she did have 
any.
    Mrs. Christensen. Thank you. I do have some questions.
    Mr. Jones, apparently when the National Park Service 
officially designated this area as wilderness, described the 
area--when President Nixon recommended that the area be made 
wilderness, the National Park Service had officially described 
the area as roadless. And I wonder if you would describe for me 
or detail for me the time line for the following events: the 
designation as a National Monument, the designation as a 
National Park, and then as a wilderness; and, last, when the 
construction of the road and the tower took place.
    Mr. Jones. OK.
    Mrs. Christensen. So beginning with when was it designated 
a National Monument.
    Mr. Jones. I am going to have to, unfortunately, provide 
those for the record. I don't recall the exact dates offhand. 
However, the wilderness, the later dates, was designated by an 
Act of Congress in 1976. The trespass took place in 1987.
    Mrs. Christensen. I don't think there are any other right-
of-ways or roads, road construction that have been permitted. 
Could you tell me if there are any existing examples of right-
of-ways authorized and designated wilderness?
    Mr. Jones. I am not aware of any that have happened. This 
in many ways, as I mentioned earlier, we think is a unique 
situation. Should the road have been built? No. Was it wrong to 
build it? Yes, it was wrong. We view it as illegal trespass 
upon park property. But we also view that at this point in time 
some of the solutions could be worse than recognizing the 
continuation of the road, which is why we do feel in this case 
it would be appropriate to recognize the road exists and allow 
it to continue to exist via right-of-way.
    Mrs. Christensen. The Park Service is not concerned that 
this is a precedent that you don't want to start by designating 
this, allowing this road to continue within the wilderness, 
especially since it was done illegally?
    Mr. Jones. It is a precedent. It is one we are very 
concerned of. It is one of the reasons we feel that there 
should be no net loss in wilderness.
    There has been one precedent for Congress that I am aware 
of, Congress taking an action to correct a mistake of when a 
heavily trafficked area into the Arctic National Park was 
designated wilderness and it was later removed from wilderness, 
and alternate wilderness designated, which is the origin of why 
we recommend the no net loss of wilderness concept.
    This situation, which is clearly recognizing a trespass 
road, is unique in my 30-year career at the National Park 
Service.
    Mrs. Christensen. Don't you think that the radio station 
and the people who trespassed are getting off too easily?
    Mr. Jones. Well, we do feel very strongly that damages are 
due the United States for the trespass that occurred. One of 
the things that has certainly also evolved since the trespass 
originally occurred was the very progressive action by the 
counties in looking at adjacent lands outside the park, taking 
very positive steps to protect and dedicate green spaces and 
managing the adjacent lands to the park for conservation 
purposes, which is why when we stand back and look at the issue 
from the big picture, it would be a simple solution to say 
don't let it go through the park, build it somewhere else, but 
we really sincerely believe that that would result in bigger 
environmental damage.
    There is no win-win solution, and it is trying to make the 
best of a very awkward situation.
    Mrs. Christensen. You had said in your statement--I guess 
this is sort of related to what you are saying--that this would 
encumber RM Broadcasting to have to relocate. That doesn't seem 
to be something that should be our concern. They illegally 
built the road. They haven't really been asked to compensate 
for the damages. So is your concern that it would put an unfair 
burden on trespassers?
    Mrs. Bono. Would the gentlelady yield, please? May I 
clarify something here? I think we are misunderstanding that it 
was not, in fact, these current radio owners or operators who 
built the road.
    Mrs. Christensen. OK.
    Mrs. Bono. It was built years prior, and I think we don't 
have definitive dates, and we should wait for them from the 
Park Service. But there is even--we are trying to get the maps 
from the USGS to see if, in fact, there was an old mining road 
there to begin with. So I think it is important to distinguish 
that this group is not who was responsible. And thank you for 
letting me borrow your time.
    Mrs. Christensen. Sure. Just for the record, even if there 
were a path there or some footpath, that doesn't constitute a 
road. So what was there and compared to what is now there, is 
that relevant? It is my understanding that maybe the two new 
towers have already been placed there, which just compounds the 
issue. And I will just come back on that in the next round.
    Mr. Radanovich. Thank you very much.
    Were the towers placed--they are not inside the wilderness 
area. It was just a portion of the road to the towers, right?
    Mr. Jones. That is correct. The towers are outside the 
park.
    Mr. Radanovich. OK. Thank you.
    Mr. Jones. They are not on Federal land.
    Mr. Radanovich. There is discussion about whether there was 
an old mine road there or that something was there prior to. 
Are we going to know this at some point in time?
    Mr. Jones. Well, the National Park Service's position at 
the time the wilderness was designated believes that this area 
was, in fact, roadless.
    Mr. Radanovich. That was their knowledge at that time?
    Mr. Jones. Yes, sir.
    Mr. Radanovich. Does that include abandoned roads, old 
roads that were once--
    Mr. Jones. What I have been told by the park staff is what 
was in this location were trails, not a road standard.
    Mr. Radanovich. Any questions, Mr. Gibbons?
    Mr. Gibbons. Mr. Jones, thank you for being here today. I 
have just two simple questions.
    One, when you say no net loss of wilderness, what loss of 
wilderness with an existing road is there if you grant these 
people an easement?
    Mr. Jones. The loss of wilderness as far as wilderness 
values and that this area--
    Mr. Gibbons. Well, I am talking about area. The road isn't 
being taken out of the wilderness area. The land isn't being 
removed. The acreage isn't changing one iota. What do you mean 
by no net loss?
    Mr. Jones. There has been various discussion of the 
possibility--that one possible solution here would be the de-
designation of a small area along the road from wilderness. And 
should that be the solution, then we would recommend that there 
be no net loss and that substitute lands be designated.
    Mr. Gibbons. OK. That makes sense now. If you want to avoid 
a precedent in this case, it would be to remove this road from 
the wilderness area.
    Mr. Jones. Yes, sir.
    Mr. Gibbons. And then take only that seven-tenths of a mile 
of road width and add new wilderness into it. Is that what your 
proposal is?
    Mr. Jones. Yes, sir.
    Mr. Gibbons. That seems like a reasonable alternative.
    Mr. Jones. The land should definitely remain in the park, 
in our opinion, but as far as the wilderness designation, this 
is on the very edge, very corner of the park.
    Mr. Gibbons. And it is only seven-tenths of one mile.
    Mr. Jones. That is correct. Yes, sir.
    Mr. Gibbons. It is not a very big piece of land.
    Mr. Jones. No, sir.
    Mr. Gibbons. Thank you.
    Mr. Radanovich. Mr. Souder?
    Mr. Souder. How far outside the park is the tower?
    Mr. Jones. Actually, if I could defer to the member--it is 
very close. Less than half a mile, as I recall.
    Mrs. Bono. My staff is whispering to me that it is 
adjacent. Is that close enough?
    Mr. Souder. And the area around the tower is relatively--I 
mean, it is in private hands. It is relatively unused, 
primitive land?
    Mrs. Bono. Would the gentleman yield?
    Mr. Souder. Yes.
    Mrs. Bono. It is actually very similar land. It is desert 
land. There is nothing geographically significant, culturally 
significant about the land. And the radio station owners now 
are willing to actually even put a little bit more of their 
private land into wilderness in exchange to sort of sweeten the 
deal, if you would. And I believe--you talk about fairness. 
Seven-tenths of a mile, I mean, Barbara was saying how maybe 
she could actually run it. You know, it is a small little bit, 
and they are very willing--
    Mr. Radanovich. Even Barbara?
    Mrs. Bono. Even Barbara.
    [Laughter.]
    Mrs. Bono. Even you, Mr. Chairman.
    They are very willing to accommodate, and they, too, 
recognize the significance of Joshua Tree National Park for our 
community. And I do believe, contrary to what the Deputy 
Director has said, I do believe this can be a win-win if we all 
work together on this and recognize this was a mistake that 
happened a long time ago, and I appreciate the gentleman for 
his time. And nobody is saying the mistake was OK or it was 
right, but as the Deputy Director has said, the best remedy is 
this.
    And my own point--was something good and brilliant, I am 
sure.
    [Laughter.]
    Mrs. Bono. Well, I will yield back at this point.
    Mr. Souder. Is this in the more western hilly part of the 
park?
    Mrs. Bono. Yes.
    Mr. Souder. And is it on the north side or the south side?
    Mrs. Bono. It is on the south side, but if--
    Mr. Souder. So in the vistas, you are looking out toward 
the main cities in the valley if you were standing at the 
tower. OK. And if you were to de-designate the seven-tenth of a 
mile from wilderness, is the goal of the Park Service to have 
whatever compensation, particularly if the company is willing 
to do that, be adjacent?
    Mr. Jones. There are a couple of options on the wilderness. 
There are other parcels in the park that have gone through 
public involvement study, environmental assessments, that have 
strong local support for designation as wilderness. There is 
also the offer that was mentioned by the member. And so as far 
as compensation for the damages, it is something we need to sit 
down with the company and define what that appropriate 
compensation would be. That is something we are very interested 
and willing to do.
    Mr. Souder. Because I think the only question here is 
really not this particular incident at this park. It is what 
standard it sets for wilderness and how you adjust when things 
like this occur.
    One last question. It was unclear to me. Is it the position 
of the Park Service--it is implied but not stated--that the 
original owner of this tower should have known not to place it 
at that location, the road?
    Mr. Jones. Yes, sir.
    Mr. Souder. In other words, they had the maps because--or 
was there any lack of clarity on that part, or were there no 
other options, they just went ahead? Did the Park Service 
object at the time?
    Mr. Jones. When the event occurred, it is my understanding 
in talking to park staff that the park staff was first aware of 
it approximately 4 months after the road had been bulldozed in. 
But it was the park staff's understanding that the company knew 
that they should not do it and it was not appropriate and they 
did not have permission to do it.
    Mr. Souder. Mrs. Bono, do you have any--
    Mrs. Bono. Thank you. I just have one question. Is it the 
Park Service's position that the superintendent at the time did 
have verbal agreements allowing this to exist?
    Mr. Jones. Once the road was discovered, the superintendent 
at the time did issue a series of special-use permits that 
allowed the road to be used.
    Mrs. Bono. And he, of course, being a Federal employee, 
there is some culpability here for the Federal Government, too. 
So let's not--we shouldn't continue to blame the private party, 
but this was sort of a wink-and-a-nod policy. And so I do 
believe it is in our best interest to recognize that the 
superintendent allowed it to continue and, therefore, further 
supports this legislation.
    Mr. Jones. I do share the view that the superintendent did 
not have the authority to issue those special-use permits. They 
should not have been done, and I think it is--I wish I had an 
eloquent answer to explain why this has taken 15 years to come 
before this Committee to try to find an equitable solution to 
the issue, but I have no answer.
    Mrs. Bono. So when we look at reprimanding, do we also go 
back and reprimand the Federal Government's part in this as 
well? That is the only question--
    Mr. Jones. The Federal Government did not commit the 
trespass.
    Mrs. Bono. No, just had a wink-and-a-nod policy.
    Mr. Jones. We did not approve the trespass from occurring. 
It was a matter of how we managed and dealt with the issue 
after it occurred.
    Mrs. Bono. Correct. All right. Thank you.
    Mr. Radanovich. I am really not clear about this now, but 
did the Park Service permit the owners of the radio station to 
have access to their tower through this property?
    Mr. Jones. The National Park Service did not approve the 
road before it was built. We had no knowledge that it was going 
to be done. It was done by the company.
    Mr. Radanovich. No, I mean prior to that time, did they 
permit them access to the tower across this property?
    Mr. Jones. No, sir; to the best of my knowledge, we did 
not.
    Mr. Radanovich. Mary, what was the--
    Mr. Souder. Was the road built at the time the tower was 
built? That is one of the--
    Mr. Radanovich. No. What I am wondering is: Did the Park 
Service allow this company to have access to the tower prior to 
the time that the existing road that is there now was cut?
    Mr. Jones. Not be vehicles. I do not know if there was 
hiking access or stock access.
    Mr. Radanovich. So the question was: After the road was 
cut, the Park Service did allow the radio station access to 
that road?
    Mr. Jones. That is correct. After it was built.
    Mrs. Bono. Mr. Chairman, I would like to submit for the 
record a letter from the Department of the Interior that 
actually puts in writing specific requirements that would allow 
them to continue if they would install a fence or a gate across 
the wash, maintained by R Group Management Company as 
necessary, and the gate will be designed so that a National 
Park Service lock may be installed.
    You know, I agree there are a lot of questions that don't 
necessarily come to the same conclusion here, but I will submit 
this for the record that does prove that perhaps they didn't 
allow--or have prior knowledge of the bulldozing, but once it 
was in, they did allow it and didn't address the problem.
    Mr. Souder. If the gentlelady would yield, what is the date 
on the letter?
    Mr. Radanovich. There being no objection, no problem with 
your testimony submitted.
    Mr. Radanovich. Go ahead.
    Mrs. Bono. It is November 24, 1987.

    [The letter submitted for the record by Mrs. Bono follows:]
    [GRAPHIC] [TIFF OMITTED] T8660.004
    
    [GRAPHIC] [TIFF OMITTED] T8660.005
    
                                ------                                


    Mr. Radanovich. Whose time are we on here?
    Mrs. Bono. Yours, Mr. Chairman.
    Mr. Radanovich. Donna? I yield to Mrs. Christensen.
    Mrs. Christensen. I know recently I have been trying to get 
my park superintendent to do something for me, and that is out 
of his authority. So I am not sure that the park superintendent 
had the authority to write the letter and give that permission.
    Mr. Radanovich. Mary, you have not been recognized during 
this whole time, so I want to give you the time to go ahead and 
question the witness or make any statement that you would like.
    Mrs. Bono. Thank you, Mr. Chairman. I feel like I have been 
recognized, so thank you all for yielding time to me. And I 
would like to actually thank the Deputy Director for your help 
with this and, again, state that it is not my--I do not want to 
see roads cut in wilderness area. I believe this is a very 
difficult problem, but as you have so well stated, too, if we 
go in and tear all of this up, it is going to damage the land 
further, and that is not an answer.
    What is important to me, I guess, is that we recognize 
this, I don't want to set precedent, but I do want to address 
the policy issues. And I want to thank also the people from the 
Park Service on the local level, John Reynolds from the 
regional office and Superintendent Quintana who came to my 
office to work on this issue. You have been very responsive and 
helpful, and I appreciate this.
    I look forward to continuing to work with the environmental 
community as well. As you have also said, this land is adjacent 
to other lands that are trying to be preserved, and so this 
whole sort of mess has happened. But I believe this is a good 
answer, and I look forward to working with the ranking member 
toward resolving it.
    Mr. Radanovich. Thank you very much. We do have another 
panel. If there are no other questions, we will move on to the 
next panel. Mr. Jones, thank--oh, one more question.
    Mrs. Christensen. You talked about expanding the 
wilderness, and I am not--how much additional land will have to 
be taken in for it to constitute a wilderness? Because you 
shouldn't see a road--it wouldn't just be a matter of a small 
portion of land, would it?
    Mr. Jones. As a result of the wilderness studies we have 
been doing in the park, we would be happy to provide the 
Committee with several tracts that have been identified that 
have wilderness potential, that have gone through a formal 
study and public review process, a total of several thousand 
acres, potential acreage that could be identified.
    Mrs. Christensen. I wanted to just explore another 
alternative. Could the park boundary be altered so that that 
road was not in the park and then make up for it?
    Mr. Jones. That is where we get into feeling that that 
would be a very bad precedent, because we would hate to think 
that by someone committing a trespass as a way to have national 
park lands removed from the National Park System.
    Mrs. Christensen. If it is indeed true that the two towers, 
the new two towers are already up there, would that change your 
position with regard to allowing the road to remain there?
    Mr. Jones. I guess I--
    Mrs. Christensen. My original information was that there is 
one old tower; they were asking for permission to put up two 
new towers. That permission was granted by--I guess it is 
Riverside County--Riverside County but with the condition that 
they receive the Park Service's allowance to go ahead and do 
that. But I have also heard that the two new towers are already 
put up and the old one is down.
    Mr. Jones. The concern, I think, as I understand it, as far 
as the reason for the condition of approval, gets at the 
fundamental issue of having potentially even greater resource 
impact if they were to build new roads outside the park. And 
that is a view we share.
    Mrs. Christensen. Why is there more damage by building new 
roads outside of the park than inside of the park? And why is 
the Park Service concerned about that?
    Mr. Jones. We are concerned because we have worked very 
carefully with the local county in its zoning and its land-use 
planning, and we feel that they have been extremely responsive 
to protecting park values and interests and providing valuable 
buffers to the park. And for us then to turn around after 
advocating that they protect those lands to say, well, we don't 
want an existing road on our land but we think it is all right 
for you to start building new roads on yours is not a good 
position to take at this point. It would be inconsistent with a 
decade's worth of cooperation with the county.
    Mrs. Christensen. I do have concerns, but if there is a way 
to work it out, I am willing to be a part of that.
    Mr. Radanovich. Any other questions? Mr. Souder? Please be 
aware we have got another panel coming up here.
    Mr. Souder. If the road is used, would there be an 
agreement of limitation just to the people who are doing 
repairs on the tower?
    Mr. Jones. Yes, sir, and that is recommended as part of--I 
believe it is part of the legislation already.
    Mr. Souder. And I am going to ask them when they come, but 
how do they do their current repairs? Do they use a helicopter 
to get there or walk now?
    Mr. Jones. Access to the towers. They have been using the 
road up until when we told them that they could not do it until 
this issue was resolved.
    Mr. Souder. And so what has been done since 1997?
    Mr. Jones. I honestly don't know.
    Mr. Souder. OK, because if it is being done by helicopter, 
that doesn't help wilderness values either.
    Mr. Jones. No.
    Mr. Souder. So I think we are all looking for how to do 
this, but in a way that doesn't establish a precedent in 
wilderness areas.
    Mr. Jones. We share that concern. As I said, we are trying 
to find what is the best way to solve a very awkward and, we 
think, very unique situation.
    Mr. Radanovich. Any other questions of the panel?
    [No response.]
    Mr. Radanovich. Thank you very much, Mr. Jones.
    Mr. Jones. Thank you, Mr. Chairman.
    Mr. Radanovich. With that I will call up the next panel: 
Mr. Eric Myers, who is the executive director of TelROW 
Coalition, Washington, D.C.; Mr. Terry Boss, Senior Vice 
President, Environment, Safety and Operations, Interstate 
Natural Gas Association of America; Mr. Kenneth P'Pool, Deputy 
State Historic Preservation Officer, Mississippi Department of 
Archives; and Mr. Todd Marker, General Manager of RM 
Broadcasting, from Palm Springs, California.
    Gentlemen, welcome, and, Mr. Myers, if you would like to 
begin your testimony, that would be greatly appreciated. We are 
going to start the clocks at 5 minutes, so please wrap it up as 
quickly as you can when coming to that. We are going to have 
votes at around 3:30, so we would like to get this done before 
then. So feel free to summarize if you want to.

    STATEMENT OF ERIC D. MYERS, EXECUTIVE DIRECTOR, TELROW 
                  COALITION, WASHINGTON, D.C.

    Mr. Myers. Thank you, Chairman Radanovich, and hopefully we 
can all take a cold glass of water and move on from trespass 
for a little while, moving back to rights-of-way.
    Good afternoon. My name is Eric Myers, and I am testifying 
today in my capacity as executive director of the 
Telecommunications Right-of-Way Coalition, or TelROW. On behalf 
of TelROW, I would like to thank Chairman Radanovich, Ranking 
Member Christensen, Representative Cubin, and members of the 
Subcommittee for convening today's hearing to address important 
issues covered by H.R. 3258, the Reasonable Right-of-Way Fees 
Act.
    TelROW's members, including companies and trade 
associations in the telecommunications and energy sectors, 
operate a network of more than 100,000 miles of fiber-optic 
cable and more than 700,000 miles of electric transmission line 
across the United States. Some of this critical infrastructure 
crosses Federal public lands.
    Commission providers and other users of rights-of-way pay 
the Federal Government for the use. In the past, these fees 
have been based on the land value and the physical impact of 
the utility project. Recently, however, the BLM and the U.S. 
Forest Service proposed to increase right-of-way fees by 
changing the basis of their calculation and abandoning existing 
regulations. These interim proposed policies capture neither 
the fair market value of the land nor the impact on Federal 
lands and resources. Instead, the proposed policies attempt to 
capture a portion of project revenues by collecting rates 
specific to the technology or economic value of the facilities 
themselves.
    These first instances in which new policies were 
implemented resulted in fees 150 times those published in the 
established legitimate Federal fee schedules. These increases 
were implemented overnight, with no formal notice or 
opportunity for comment. Currently, after much congressional 
inquiry and stern oversight, the agencies have indefinitely 
delayed implementation of new fees, but maintain their 
discretion to do so.
    Federal Government appraisers recognize the inappropriate 
nature of these fee increases in their own internal appraisal 
handbooks. They state that the Federal Government should not 
pay inflated technology-based prices when acquiring rights-of-
way over lands owned by private citizens or other entities. 
However, in addressing what a Federal agency may charge for the 
use of an easement, the participating agencies indicated, quite 
inconsistently, that they saw no reason why Federal agencies 
could not charge the public these much higher technology-based 
rates.
    The agencies currently administer rights-of-way through a 
single, consistent linear fee schedule and have indicated their 
intention to increase fees for fiber-optic rights-of-way first 
and then proceed to reissue fees for other facilities, such as 
pipelines, power lines, wire lines, et cetera. Past practice to 
increase these fees was done simultaneously consistent with any 
change in the value of the underlying land or inflation. The 
impacts of such fees on our Nation's energy infrastructure 
could be devastating for commodities and for companies that 
supply and deliver these services and commodities.
    The U.S. Forest Service and BLM have initiated a trend 
among Federal agencies that manage public lands. The National 
Park Service and the National Oceanic and Atmospheric 
Administration have implemented or are considering similar 
policies, charging even higher fees for the right to cross 
these lands--in some cases, 4 to 10 times higher than the 
highest fees we have seen in the BLM and Forest Service 
context, or 600 to 1,000 times higher in the existing linear 
fee schedules.
    As a matter of fact, this week I learned that one company 
has been charged $120,000 a year to go 3 miles across the 
Golden Gate National Recreation Area.
    Clearly, these policies have nothing to do with land 
impact. It is important to note that none of these rights-of-
way are established until extensive NEPA analyses have been 
conducted and deliberate and due care has been taken to prevent 
and monitor impacts to the environment.
    Despite the conclusions of Government studies indicating 
little or no ecological harm, these agencies have followed the 
lead of the BLM and the Forest Service in pursuing exorbitant 
increases in fees for the right to cross public lands. Rights-
of-way are an important use of Federal lands whose impact on 
the underlying value and other uses is minimal. To paraphrase 
FLPMA, rent for rights of way should be no greater than the 
value of the rights and privileges authorized by the right-of-
way grant or permit and should reflect a public interest in the 
construction of such facilities.
    We recognize that agencies may have in good faith 
misinterpreted the intent of Congress in determining these new 
right-of-way fees, and we believe that through the additional 
guidance provided by H.R. 3258 and the public rulemaking 
process, with adequate opportunity for notice and comment, the 
existing fee schedule can be revised, if necessary, to promote 
accurate reflections of the value of these rights-of-way.
    We look forward to working with Mrs. Cubin, this Committee, 
Federal land management agencies, and other interested 
stakeholders pursuant to what we believe is a common goal in 
the public interest.
    I thank you for inviting me to testify today, and I would 
be happy now to answer or provide written answers to any 
questions you may have.
    [The prepared statement of Mr. Myers follows:]

  Statement of Eric D. Myers, Executive Director, Telecommunications 
                  Right-of-Way Coalition, on H.R. 3258

    Good Afternoon. My name is Eric Myers, and I am testifying today in 
my capacity as the Executive Director of the Telecommunications Right-
of-Way Coalition, or TelROW. On Behalf of TelROW, I would like to thank 
Chairman Radanovich, Ranking Member Christensen, Representative Cubin, 
and members of the Subcommittee for convening today's hearing to 
address the important issues covered by H.R. 3258, the Reasonable 
Right-of-Way Fees Act.
    TelROW's members, including companies and trade associations in the 
communications and energy sectors, operate a network of more than 
100,000 miles of fiber optic cable, and more than 700,000 miles of 
electric transmission lines, across the United States. Some of this 
critical infrastructure, especially in the west, crosses Federal public 
lands. The companies who formed this coalition were motivated by 
several interim and proposed policies developed by the Bureau of Land 
Management and U.S. Forest Service (See Attachments). We support H.R. 
3258 as a necessary amendment to the Federal Land Policy and Management 
Act (FLPMA), to ensure a reasonable approach to collecting right-of-way 
rents. H.R. 3258 ensures that right-of-way rents are consistent with 
the fair value of the right to cross Federal lands, thus promoting 
sound management of these public resources, and advancing the public's 
interest in these lands.
Introduction and Background
    Communications providers and other operators and owners of linear 
infrastructure pay the Federal Government for the use of rights-of-way 
(ROW) over lands administered by the U.S. Forest Service (USFS), the 
Bureau of Land Management (BLM), and other Federal agencies. Currently, 
the fees for rights-of-way on Federal lands have been based on a proxy 
for the market value of the land, the size of the right-of-way, and the 
number of cables, pipes, or other distinct facilities. These 
calculations are reasonably equivalent to the land value and the 
physical impact of the utility project.
    Recently, however, the BLM and USFS proposed to increase ROW fees, 
by changing the basis of the calculation for ``fiberoptic projects,'' 
based on data they believed demonstrated a special, separate ``value of 
fiberoptic use and occupancy.'' These interim and proposed policies, 
however, capture neither the fair market value of the land over which 
fiberoptic cable is conveyed, nor the consequent impact on Federal 
lands and resources. Instead, the proposed policies attempt to capture 
a portion of telecommunications revenues, by charging for uses not 
based on the value of land to the Federal Government or impacts 
thereto, but by rates specific to the technology or economic value of 
the facilities themselves. We believe these policies are based on 
arbitrary assumptions and anecdotal evidence regarding the ``market'' 
value of telecommunications easements across private, state, and 
municipal lands, sometimes in distant, urban settings. The first 
instances in which these proposed and interim policies were implemented 
resulted in fees 150 times those in the published, established, and 
legitimate Federal fee schedules. The USFS and BLM have failed to 
justify such large increases based either on actual land value or on 
land impact. Currently, after much Congressional inquiry and stern 
oversight, the agencies have indefinitely delayed implementation of new 
fees.
The Proposed Methodologies are Unjust
    The methodologies proposed by the BLM and USFS are inconsistent 
with current regulations and policies applied to other infrastructure 
providers. Forcing critical infrastructure providers to pay 
dramatically increased fees for the use of Federal lands, particularly 
where the new use is similar or compatible to other existing uses, 
involving impacts identical to or less than uses for which a lower fee 
is charged, is inconsistent. Such policies protect neither the public 
land nor the public interest. Such policies do not accomplish the goals 
of protecting the value of Federal lands or natural resources. They 
amount to a tax on the services conveyed by these facilities. 
Furthermore, under such policies, Federal lands and other reservations 
become roadblocks or toll booths to interstate and international 
commerce.
Agency Officials Have Recognized the Inequity of These Policies
    The Interagency Land Acquisition Conference, an ad hoc group of 
appraisers and real estate professionals in the Federal Government, 
recognized the inappropriate nature of these technology-based 
valuations in their most recent revision to the Uniform Appraisal 
Standards for Federal Land Acquisition (see Attachment). The Conference 
indicated that the Federal Government should not pay inflated 
technology-based prices when acquiring rights-of-way over lands owned 
by private citizens or other entities. However, in addressing what a 
Federal agency may charge for the use of an easement on Federal land, 
the participating agencies indicated, quite inconsistently, that they 
saw no reason why Federal agencies could not charge private easement 
holders these technology-specific rates. Thus, the agencies made clear 
that, technology-based prices for leasing rights of way are 
inappropriate when a Federal agency has to pay such inflated rates, but 
may be perfectly appropriate when the Federal agencies are the 
recipient of such fees. In both cases, we are talking about definitions 
of ``fair market value.'' It is important to note that many of the same 
appraisers who crafted this inconsistent internal agency policy are the 
same individuals advising the new fiberoptic fee schedules.
The Proposed Methodology is Contrary to Real Estate Appraisal 
        Principles
    Generally speaking, easement values are determined to be somewhat 
less than the fee value of the land upon which the easement is 
established, since these rights-of-way consist of a limited contract to 
use lands for a specific purpose. These valuations are guided by two 
basic principles, 1) ``before and after'' value, which ascribes a value 
to easements equal or similar to the reduction of value or utility 
resulting from an easement use, and 2) ``willing buyer-willing 
seller,'' a principle which suggests that the parties to an easement 
transaction enter as willing and equal participants, with an array of 
possible options. The approach taken by Federal agencies focuses on 
situations where cities or other entities have incorporated franchise-
like fees into required easement payments, or where individual 
landowners have leveraged their ability to ``hold out'' or obstruct 
established rights across adjacent lands to obtain higher payments for 
easements on their land. These cases are exceptional, and should not 
alter the established principles, which base easement payments on the 
underlying property value.
Land Value Is the Proper Measure of Fair Market Value for Rights-of-Way
    Since there is no true market in Federal land, overall valuation, 
as well as the cost of the land impact, must be estimated. While it is 
appropriate for the government to come up with some methodology to 
estimate values, in this case, we believe they have chosen to apply 
inappropriate principles. An estimation of ROW value must be based on 
the estimated value of the land, and on the estimated impact of the 
project on the value of the remaining land, not on the value of 
technology installed or associated commerce. A cost or impact-based 
principle is the universal methodology used by right-of-way project 
developers to determine constitutional levels of payment for rights-of-
way obtained from private parties in condemnation proceedings. This is 
how the Federal Government determines how much to pay private land 
owners when they acquire rights-of-way for roads or other public 
projects.
The Market Value of Most Federal Land is Low
    Government-held land is subject to far more restrictions than is 
similar private property. This is because Federal statutes restrict 
activities on Federal lands to accomplish other public objectives. For 
instance, Federal easement holders cannot obtain permanent rights-of-
way, and must obtain Federal regulatory approval to engage in routine 
maintenance. Such restrictions increase operating costs, and thus 
dramatically decrease the value of the Federal land easements. 
Furthermore, development of Federal lands is limited, as they are not 
made available for many of the competing uses possible on private 
lands, and therefore Federal lands are generally of lower real estate 
value than similar privately-held lands. As a result, any policy that 
attempts to draw direct associations between right-of-way fees on 
private lands and fair equivalents on Federal lands must take into 
account factors which reduce the utility and value of Federal land 
easements, and which limit the value of Federal lands.
The Agency Proposals are Inefficient and Environmentally Unsound
    These new fee schedules, proposed to increase fees incrementally 
based on the number of users, or are based on the type of technology 
rather than the land value and use, discourage the construction of 
dark-fiber or additional unused capacity, which can be utilized at a 
later date. Discouraging the installation of fiber that may be 
currently unused simply means that additional capacity needed in the 
future may require additional complete installations, with the related 
economic costs and environmental impacts of re-accessing Federal lands 
and resource areas. Such additional installations would be unnecessary 
if large numbers of fibers, cables, or ducts, even though 
underutilized, were installed all at one time, at one fee.
    The USFS and BLM, which currently administer ROW through a single, 
consistent linear fee schedule, have indicated their intention to 
increase fees for fiber optic rights-of-way first, and then proceed to 
reissue fees for other facilities, such as pipelines, power lines, 
water lines, et cetera. As I noted earlier, and as you will hear from 
my colleague from the Interstate Natural Gas Association of the 
Americas, the impacts of such fees on our nations energy infrastructure 
could be devastating for companies that supply or deliver these 
services and commodities.
    USFS and BLM have initiated a trend among other Federal agencies 
that manage public lands. Through authorizing statutes other than 
FLPMA, the National Park Service and National Oceanic and Atmospheric 
Administration have drafted or are considering similar policies 
charging fees for the right to cross parks and marine sanctuaries with 
fiber optic cables. It is important to note that none of these rights-
of-way are established until extensive NEPA analyses have been 
conducted, and deliberate and due care has been taken to prevent and 
monitor impacts to the environment. Despite the conclusions of 
government studies, indicating little or no ecological harm, these 
agencies have followed the lead of the BLM and USFS in pursuing 
exorbitant increases in right-of-way rents and other compensation for 
the right to cross Federal lands.
Conclusion
    Rights-of-way for fiber-optic telecommunications and other linear 
facilities are an important use of Federal lands, whose impact on the 
underlying value, and other uses of those lands is minimal. To 
paraphrase FLPMA, rent for rights-of-way should be no greater than the 
value of the rights and privileges authorized by the right-of-way grant 
or permit, and should reflect a public interest in the construction of 
such facilities. Furthermore, we believe that valid, established real 
estate principles should underlie any regulatory decisions made as to 
the value of rights-of-way.--TelROW supports passage of H.R. 3258, as 
well as other regulatory and legislative processes through which a 
reasonable, practical, and consistent linear right-of-way fee schedule 
can be developed.
    We recognize that these agencies may have, in good faith, 
misinterpreted the intent of Congress in charging ROW fees, and believe 
that through the additional guidance provided by H.R. 3258, and a 
public rule making process with adequate opportunity for notice and 
comment from all stakeholders (the process through which the existing 
fee schedule was established), the existing fee schedule can be 
revised, if necessary, to more accurately reflect the value of these 
rights-of-way. Prompt resolution of this issue will provide certainty 
to the purveyors of our Nation's critical infrastructure, who are 
committed to delivering reliable, secure, and vital products, 
utilities, and services to America's consumers and growing economy. We 
look forward to working with Ms. Cubin, this Committee, Federal Land 
Management Agencies, and other interested stakeholders pursuant to what 
we believe is a common goal, in the public interest. Thank you again 
for inviting met to testify today. I would be happy to answer now, or 
provide written answers, to any questions you may have.
                                 ______
                                 
    Mr. Radanovich. Thank you, Mr. Myers.
    Mr. Terry Boss, Senior Vice President of Environment, 
Safety and Operations with the Interstate Natural Gas 
Association of America. Mr. Boss, welcome, and please proceed 
with your testimony. Feel free to sum up, and please keep it 
under 5.

 STATEMENT OF TERRY BOSS, SENIOR VICE PRESIDENT, ENVIRONMENT, 
 SAFETY AND OPERATIONS, INTERSTATE NATURAL GAS ASSOCIATION OF 
                   AMERICA; WASHINGTON, D.C.

    Mr. Boss. Mr. Chairman and members of the Subcommittee, 
thank you for the opportunity to testify this afternoon. INGAA 
is the trade association that represents interstate natural gas 
transmission pipelines in the United States, Canada, and 
Mexico. Our members deliver over 90 percent of the natural gas 
consumed in the U.S. via more than 200,000 miles of 
transmission pipeline systems.
    Many of our pipelines in the Western U.S. do traverse 
either Bureau of Land Management or U.S. Forest Service lands, 
and we have had a good relationship with those agencies. 
Therefore, we have a keen interest in how right-of-way fees are 
assessed by these agencies. The BLM/USFS proposals that we have 
seen regarding possible new fee schedules for fiber-optic 
systems have given us great cause for concern. While to date 
the proposals have dealt only with fiber-optic systems, we are 
concerned about the precedent that might happen on our right-
of-ways, including pipelines. INGAA does support the idea of 
paying reasonable fees for right-of-way on public lands. We 
believe H.R. 3258, introduced by Representative Cubin, sets 
forth reasonable criteria for assessing these fees, and we urge 
its adoption.
    Before describing right-of-way fees, I want to take a 
moment to talk about the natural as pipeline industry and why 
our access to the right-of-way is important. One of the key 
reasons our industry is focused on this issue is the fact that 
natural gas demand in this country is growing at a rapid rate, 
and as a result, the pipeline industry will need to grow 
significantly in order to meet this anticipated opportunity, as 
demonstrated in this report.
    For example, population growth in areas such as Southern 
California, Arizona, and the Pacific Northwest translates into 
a need for more pipeline infrastructure, mainly to supply fuel 
for new clean power generation facilities. It is in the West 
where the vast majority of this land is located that any 
significant change in the right-of-way policy is likely to have 
the greatest effect on consumers. When the pipeline industry 
heard about the proposed changes in fees on fiber-optic lines, 
we realized that our own industry might be next.
    With this in mind, the INGAA Foundation commissioned a 
study to examine this issue. I have provided copies of the 
study to the Subcommittee membership, and I ask that it be made 
part of today's hearing record.
    According to our data, there are about 15,600 miles of 
pipelines in Federal lands and about 7 percent of the total 
mileage in the U.S. and more to be built in the future. Most of 
this pipeline mileage is located on BLM or USFS lands, with 
about 28 percent of it located on other Federal lands.
    The annual fees to use right-of-ways through these Federal 
lands are currently about $1.6 million for our industry. If we 
look at some of the potential alternatives for assessing these 
fees now under consideration, natural gas industry fees could 
go from $1.6 million to approximately $40 to $150 million per 
year. This would assume that BLM and USFS would attempt to 
place an economic value on that gas moving through there.
    As you can see, these would be stunning increases, and they 
would be borne largely by consumers in the Western U.S..
    Of course, assigning economic value to natural gas in our 
pipelines would not be easy. First, the pipeline operators do 
not own the natural gas in most of our pipelines. We, as 
pipelines, are transporters only, just like a trucking company. 
Customers purchase gas directly from producers or market and 
pay a set fee to transport it over our system. Therefore, the 
economic value of the commodity is no longer tied or tracked by 
the pipeline operator.
    Second, the natural gas has become a true commodity. It is 
traded on open markets, and prices move on a daily basis. The 
price of natural gas can and does fluctuate significantly over 
the course of a single year, as we have seen in recent history. 
Just last year, natural gas prices moved from highs of around 
$10 to lower than $2 per million cubic feet. Assigning an 
annual economic value to a commodity which experiences such 
daily fluctuations would be extremely difficult, if not 
altogether impractical. As any experienced energy analyst would 
tell you, predicting natural gas prices for an upcoming year is 
even more difficult than predicting the weather.
    Let me make one final point about basing right-of-way fees 
on such a concept as commercial value or technology employed. 
We are concerned that such a fee system would put pressure on 
the BLM to give priority for new right-of-ways only to those 
entities that would pay the highest fees. We have witnessed 
other Federal agencies, namely, the FCC in the case of spectrum 
auctions, push aside other worthy applications in favor of 
producing greatest perceived dollars for the treasury. A more 
balanced approach is needed, one that removes the incentive to 
assign right-of-way only to the highest bidder and which fairly 
compensates the Government.
    As Representative Cubin has pointed out, the proposed fee 
structure would harm development of telecommunications and 
energy infrastructure in rural areas, particularly in the West. 
Consumers in these areas would bear the cost both in terms of 
higher prices and in access to critical infrastructure.
    INGAA supports a real-world criteria for determining and 
collecting these fees for a reasonable amount of money, and we 
believe the bill proposed will help that sort of thing.
    I appreciate the opportunity to speak here.
    [The prepared statement of Mr. Boss follows:]

Statement of Terry Boss, Senior Vice President, Environment, Safety and 
Operations, Interstate Natural Gas Association of America, on H.R. 3258

    Mr. Chairman and Members of the Subcommittee:
    Thank you for the opportunity to testify this afternoon. I am Terry 
Boss, Senior Vice President for Environment, Safety and Operations for 
the Interstate Natural Gas Association of America (INGAA). INGAA is the 
trade association that represents interstate natural gas pipelines in 
the United States, Canada and Mexico. Our members deliver over 90 
percent of the natural gas consumed in the US, via more than 200,000 
miles of transmission pipeline systems.
    Many of our pipelines in the Western U.S. do traverse either Bureau 
of Land Management (BLM) or U.S. National Forest Service (USFS) lands, 
and therefore we have a keen interest in how right-of-way fees are 
assessed by these agencies. The BLM/USFS proposals we have seen, 
regarding possible new fee schedules for fiber optic systems, have 
given us great cause for concern. While to date the proposals have 
dealt only with fiber optic systems, we are concerned about the 
precedent that might be established for other rights-of-way, including 
pipelines. INGAA does support the idea of paying reasonable fees for 
right-of-way on public lands. We believe H.R. 3258, introduced by Rep. 
Barbara Cubin, sets forth reasonable criteria for assessing these fees, 
and we urge its adoption.
IMPORTANCE OF PIPELINES
    Before describing right-of-way fees, I wanted to take a moment to 
talk about the natural gas pipeline industry, and why our access to 
right-of-way is important. One of the key reasons our industry is 
focused on this issue is the fact that natural gas demand in this 
country is growing at a rapid rate, and as a result, the pipeline 
infrastructure will need to grow significantly in order to meet 
anticipated demand. Pipelines are the only practical method for 
transporting our product. Small amounts of liquefied natural gas (LNG) 
are imported into the U.S. via tankers from abroad <SUP>1</SUP>, but in 
general, the natural gas we consume is produced in North America 
<SUP>2</SUP>, and transported through pipelines from the wellhead all 
the way to homes, businesses and power plants. Since natural gas 
represents 25 percent of all the energy consumed in the United States, 
pipelines are a critical part of the energy infrastructure we need to 
fuel our economy and provide the quality of life we expect.
---------------------------------------------------------------------------
    \1\ Less than 1 percent of total natural gas consumed in the U.S. 
annually is imported as LNG.
    \2\ Eighty five percent of the natural gas consumed in the U.S. is 
produced domestically, while about 15 percent of U.S. consumption is 
imported from Canada.
---------------------------------------------------------------------------
    The United States currently consumes about 23 Trillion cubic feet 
(TCF) of natural gas annually. According to a recent analysis done for 
the INGAA Foundation <SUP>3</SUP>, that number is expected to grow to 
31.3 TCF by 2015, which represents a 34 percent increase in demand in 
just 13 years. Much of this demand increase is being driven by the 
growth in gas-fired power generation. Over 90 percent of all new, 
installed power generation is gas-fired, and the amount of natural gas 
used to generate electricity is projected to increase by 106 percent 
between now and 2015. In addition, we are experiencing growth in 
industrial demand from such major consumers of natural gas as glass, 
fertilizer and chemical manufacturers.
---------------------------------------------------------------------------
    \3\ ``Pipeline and Storage Infrastructure for a 30 TFC Market--An 
Updated Assessment,'' prepared for the INGAA Foundation by Energy and 
Environmental Analysis, Inc., January 2002.
---------------------------------------------------------------------------
    All this growth translates into the urgent need for more pipeline 
infrastructure as well as the continued maximum use of the existing 
infrastructure. The current network of pipelines is simply not 
sufficient to meet the demands of the 30 TCF market. Our analysis 
estimates that the natural gas industry will require $67.9 billion of 
investment in pipeline transmission and storage infrastructure from 
2001 to 2015 in both the United States and Canada <SUP>4</SUP>. In 
total, natural gas pipeline companies will need to install more than 
74,000 miles of transmission pipe to meet the growing market for 
natural gas in the United States (49,500 miles) and Canada (25,000 
miles) during this period.
---------------------------------------------------------------------------
    \4\ $47.7 billion in the U.S., and $16.8 billion in Canada.
---------------------------------------------------------------------------
    This is a significant challenge for our industry under any 
circumstances. Because of the growth that the West has experienced in 
the last decade, and will continue to experience in the decades to 
come, our industry will have to expand in that region. Areas such as 
Southern California, Arizona and the Pacific Northwest will all need to 
construct new natural gas pipeline capacity in the next few years in 
order to supply fuel to new power generation facilities. It is in the 
West, where the vast majority of BLM/USFS land is located, that any 
significant change in right-of-way policy is likely to have the 
greatest affect on consumers.
BLM/NFS PROPOSALS
    The Federal Land Policy and Management Act of 1976 (FLPMA) 
authorizes the BLM to issue permits for the use of rights-of-way across 
jurisdictional lands. The Act also gives the BLM the authority to 
collect the ``fair market value'' for the use of such lands, ``using 
comparable commercial practices.'' The BLM developed criteria for 
determining the fair market value for these rights-of-way, and these 
processes have been the core of the BLM fee structure since 1987. The 
policy allows BLM to collect the ``reasonable costs'' associated with a 
right-of-way.
    Beginning in the mid-1990s, both the USFS and the BLM began looking 
at establishing a new set of criteria for determining fair market 
value, based in part on assessing the technology or commercial value of 
the linear facility in question. These efforts have clearly been 
focused on fiber optic lines, moving beyond questions regarding the 
implications of land use, and looking more at the commerce associated 
with a right-of-way. This would represent a major policy shift, and 
would significantly increase both fees, and the amount of information 
that would be required to determine what might constitute a right-of-
way's appropriate fee level. INGAA joins with the members of TeleROW in 
strongly opposing these proposals.
POTENTIAL IMPACT ON PIPELINES
    When the pipeline industry reviewed the proposed changes in fees 
for fiber optic lines, we realized that our own industry might be next. 
With this in mind, the INGAA Foundation commissioned a study 
<SUP>5</SUP> to examine this issue, and assess the potential impact on 
our business. I have provided copies of the study to the Subcommittee 
membership, and I ask that it be made a part of today's hearing record.
---------------------------------------------------------------------------
    \5\ ``BLM & U.S. Forest Service Rental Valuation Impact Study,'' 
prepared for the INGAA Foundation by Houston Energy Group, LLC, 
November, 2001.
---------------------------------------------------------------------------
    First, let me provide some background. Interstate natural gas 
pipelines must first obtain approval from the Federal Energy Regulatory 
Commission (FERC) before any major construction or expansion can begin. 
The FERC strongly encourages pipeline operators to work with both 
private landowners, and with Federal/state agencies, in order to 
resolve any questions about pipeline route, construction practices and 
land-use compensation. The FERC coordinates the permitting process 
required for the pipeline, included approval of necessary rights-of-way 
through Federal lands. During construction, the right-of-wide may be 
from 75 to 100 feet wide, in order to accommodate workers and 
machinery, but pipeline operators are usually required to reduce the 
right-of-wide width and restore the area to a generally original 
condition once construction is complete. After construction, a pipeline 
right-of-way is typically 50 feet wide, and must be kept clear of trees 
and permanent structures primarily for safety reasons.
    One of the key issues associated with new pipeline construction is 
working fairly and equitably with private landowners. As I mentioned, 
the FERC strongly encourages pipeline operators to negotiate directly 
with private landowners about questions of pipeline route and land-use 
compensation. Some of the criteria generally used to determine 
compensation include the diminution of property value associated with 
the right-of-way, and costs associated with restoring the right-of-way 
to a usable condition. Using the power of eminent domain, the FERC can 
grant condemnation authority to the pipeline if a landowner is 
unwilling or unable to negotiate, but more than 90 percent of pipeline 
right-of-way is typically obtained without using this authority.
    According to our data, there are currently about 15,600 miles of 
interstate natural gas transmission pipeline on Federal lands, or about 
seven percent of the total mileage in the U.S. Most of this pipeline 
mileage is located on BLM or USFS lands, <SUP>6</SUP> with about 28 
percent of the total located on other Federal lands. The annual fees to 
use rights-of-way through these Federal lands are currently about $1.6 
million for our industry. Again, let me make the point that, in 
general, aboveground usage of the land is not restricted by a pipeline 
right-of-way.
---------------------------------------------------------------------------
    \6\ About 6840 miles on BLM lands, and 4,350 miles on NFS lands.
---------------------------------------------------------------------------
    If we look at some of the potential alternatives for assessing 
right-of-way fees now under consideration, the natural gas pipeline 
industry's fees could go for $1.6 million per year to $40-$150 million 
per year. This would assume that the BLM and USFS would attempt to 
place an economic value on the natural gas moving through our systems 
on an annual basis, and then tie fees to some percentage of that 
economic value. As you can see, these would be stunning increases, and 
they would by and large be borne by consumers living in Western states.
    Of course, assigning an economic value to the natural gas in our 
pipelines would not be easy. First, the pipeline operators do not own 
the natural gas that moves through their pipelines. As a result of the 
restructuring of our industry in the 1980s and 90s, interstate 
pipelines no longer purchase natural gas at one end of their system, 
and sell it at the other end. The interstate transportation function 
has been ``unbundled'' from the gas commodity. We as pipelines are 
transporters only, just like a trucking company. Customers purchase 
their natural gas directly from producers or marketers, and pay a set 
fee to transport their gas over our pipelines. Therefore, the economic 
value of the commodity (the natural gas itself) is no longer tied to 
the pipeline operator.
    Second, natural gas has become a true commodity. It is traded on 
open markets and prices move on a daily basis. The price of natural gas 
can and does fluctuate significantly over the course of a single year, 
as we have seen in recent history. Just last year, natural gas prices 
moved from highs of around $10 per Mcf to lower than $2 per Mcf. 
Assigning an annual economic value to a commodity which experiences 
such daily price fluctuations would be extremely difficult, if not 
altogether impractical. As any experienced energy analyst would tell 
you, predicting natural gas prices for an upcoming year is even more 
difficult than predicting the weather. Building an expensive right-of-
way fee schedule around such predictions would be a recipe for failure.
    Let me make one final point about basing right-of-way fees on such 
concepts as commercial value or technology employed. We are concerned 
that such a fee system would put pressure on the BLM and USFS to give 
priority for new rights-of-way only to those entities that could pay 
the highest fees. We have witnessed other Federal agencies--namely the 
Federal Communications Commission, in the case of spectrum auctions--
push aside other worthy applications in favor of producing the greatest 
perceived dollars for the Treasury. Just like with radio frequency 
spectrum, however, there are plenty of legitimate uses for rights-of-
way across Federal lands, and they don't always involve applications 
associated with the highest fees that can be generated. A more balanced 
approach is needed--one that removes the incentive to assign right-of-
way only to the highest bidder, AND which fairly compensates the 
government.
NEED FOR LEGISLATION
    As Representative Cubin has pointed out, the proposed BLM/USFS fee 
structure would harm the development of telecommunications and energy 
infrastructure in rural areas, particularly in the West. Consumers in 
these areas would bear the costs, both in terms of higher prices and in 
access (or lack thereof) to critical infrastructure.
    INGAA supports the development of real-world criteria for 
determining and collecting reasonable right-of-way fees on BLM and USFS 
lands. We believe the Cubin bill, H.R. 3258, represents the best 
approach to developing these fees. The legislation would determine a 
fair market value for right-of-way in question by looking at some of 
the same criteria we currently use in the pipeline industry for 
valuation of right-of-way on private land, such as the value of the 
land encumbered, the diminution of value associated with the right-of-
way, or the costs associated with restoring the land to its original 
use. H.R. 3258 also puts to rest the idea of trying to determine an 
economic or commercial value of the commodity or service being moved 
over a right-of-way, and instead clarifies that any fee should be based 
on the value of the land in question.
CONCLUSION
    As our industry expands over the next 20 years, we will be 
maintaining and expanding our pipeline rights-of-way on Federal lands 
in order to serve energy consumers in the Western U.S. The members of 
INGAA are willing to pay their fair share of the costs associated with 
Federal right-of-way usage, and we believe H.R. 3258 provides a fair 
and reasonable process for developing these fees. I want to thank you 
once again, Mr. Chairman, for the opportunity to testify today, and I 
would be happy to answer any questions.
    NOTE; A report accompanying Mr. Boss' statement entitled ``BLM & 
U.S. Forest Service Rental Valuation Impact Statement'' has been 
retained in the Committee's official files.
                                 ______
                                 
    Mr. Radanovich. Thank you, Mr. Boss.
    Mr. Kenneth P'Pool, the Deputy State Historic Preservation 
Officer with the Mississippi Department of Archives. Welcome 
and please begin your testimony. Please keep it within 5 
minutes.

     STATEMENT OF KENNETH H. P'POOL, DEPUTY STATE HISTORIC 
 PRESERVATION OFFICER, MISSISSIPPI DEPARTMENT OF ARCHIVES AND 
                 HISTORY, JACKSON, MISSISSIPPI

    Mr. P'Pool. I am very grateful to be here to testify on 
behalf of H.R. 3307. I will try to summarize my comments as 
submitted in my written testimony.
    Sites associated with the Civil War speak profoundly to the 
struggles that transformed our diverse States and peoples into 
a cohesive Nation. As Southern author Robert Penn Warren 
rightly stated, ``America became a nation only with the Civil 
War.'' No sites tell that compelling story better than those 
associated with the Vicksburg campaign.
    General Grant's Vicksburg campaign is believed by many 
historians to be the most decisive of the Civil War. It was the 
most complex, combined operation ever undertaken by American 
armed forces prior to World War II. The great significance in 
this issue of acquiring Pemberton's Headquarters is that it was 
the intent of both Union and Confederate veterans who planned 
the Vicksburg National Military Park back in the 1890's that 
the headquarters of both Grant and Pemberton be included within 
the park. Because there was not a willing seller at that time 
for Pemberton's Headquarters since it was in private ownership, 
acquisition was not pursued. Now the owner of Pemberton's 
Headquarters is a willing seller, and we have an opportunity to 
fully interpret the siege of Vicksburg as envisioned by the 
veterans themselves and to accomplish the expanded interpretive 
mission assigned to the Vicksburg Military Park by Congress in 
1990.
    Because of the location of Pemberton's Headquarters at the 
same general area in which the Union Army administered the 
occupation of the city of Vicksburg during the Reconstruction 
Era, Pemberton's Headquarters provides an ideal location within 
the heart of Vicksburg to interpret not only the siege but also 
the occupation and Reconstruction period, including the 
significant roles played by African Americans during those 
periods.
    Economic development is another important aspect of this. 
The National Park Service presence in downtown Vicksburg at 
Pemberton's Headquarters will no doubt attract more visitors 
from the park into the city, generating an important economic 
impact on the city's heritage tourism economy.
    A study in Virginia a few years ago indicated that visitors 
to Virginia's Civil War sites expended almost twice as much 
money as other visitors to their State. We expect that similar 
statistics can be expected for Vicksburg as well.
    Pemberton's Headquarters was restored about 3 years ago, so 
additional renovation costs for the building should be modest. 
Also, real estate and construction costs in Mississippi are 
also modest in comparison with most other States.
    Passage of H.R. 3307 is strongly supported by the city, the 
county, and State governments. Therefore, I respectfully 
request that the Subcommittee recommend authorization of H.R. 
3307.
    I would be happy to answer any questions that you have.
    [The prepared statement of Mr. P'Pool follows:]

  Statement of Kenneth H. P'Pool, Deputy State Historic Preservation 
 Officer, Mississippi Department of Archives and History, on H.R. 3307

    Mr. Chairman and distinguished members of the House Subcommittee on 
National Parks, Recreation, and Public Lands:
    I am Kenneth H. P'Pool, Deputy State Historic Preservation Officer 
for Mississippi and Director of the Historic Preservation Division of 
the Mississippi Department of Archives and History. I am very pleased 
to have the opportunity to present testimony to you in support of H. R. 
3307, to authorize the Secretary of the Interior to acquire the 
property known as Pemberton's Headquarters and to modify the boundary 
of the Vicksburg National Military Park to include that property.
    Although our country is blessed with many places of great historic 
value, those associated with the Civil War speak most profoundly and 
eloquently to the struggles that shaped our American democracy and 
transformed our diverse states and peoples into a cohesive union. As 
author Robert Penn Warren wrote, ``America became a nation only with 
the Civil War.'' No Civil War sites tell the stories of valor, 
commitment, and sacrifice exhibited by Northerners and Southerners, 
blacks and whites, during that conflict better than those associated 
with the Vicksburg Campaign.
    Early in the war, Abraham Lincoln recognized Vicksburg, the 
``Gibraltar of the Confederacy,'' as ``the key'' to controlling the 
Mississippi River and severing the Confederacy in half. As the 
Vicksburg Campaign developed, it resulted in a regional operation 
involving major military actions in Tennessee, Arkansas, and Louisiana, 
as well as Mississippi.
    During the winter of 1862-63, Union commander Major Gen. Ulysses S. 
Grant conducted a series of amphibious operations, referred to as Bayou 
Expeditions, against Vicksburg, but all failed. Finding it impossible 
to approach Vicksburg through the bayous of the Mississippi Delta, in 
the spring of 1863, Grant embarked upon a bold and risky strategy to 
march his army of 45,000 men down the Louisiana side of the 
Mississippi, cross the river below Vicksburg, and attack the city from 
the south. Repulsed by the Confederate forts at Grand Gulf in his first 
attempt to cross, Grant undauntedly marched his troops further south 
and stormed across the river at Bruinsburg. Rapidly advancing on a 200-
mile-long triangular route (first northeastward then westward), along 
sunken roads, over rugged terrain, and through dense forest and 
farmlands, Grant engaged and decisively defeated the Confederates in 
fierce battles near Port Gibson on May 1, 1863, Raymond on May 12, 
Jackson (the state capital) on May 14, Champion Hill on May 16, and Big 
Black River Bridge on May 17. After two failed attempts to take 
``fortress Vicksburg'' by storm, Grant laid siege to the city for six 
weeks. Cut off from supplies and reinforcements and pounded mercilessly 
by Union land batteries and gunboats, Confederate commander Lt. Gen. 
John C. Pemberton was forced to surrender Vicksburg on July 4, 1863.
    Grant's Vicksburg Campaign is believed by many historians to be the 
most decisive of the Civil War and, perhaps, the most brilliant 
offensive campaign ever undertaken in North America. It was also the 
most complex combined operation ever attempted by American armed forces 
prior to World War II. The loss of Vicksburg, perhaps more than any 
other single event of the war, spelled doom for the Confederacy.
    Pemberton's Headquarters, also known as the Willis-Cowan House, is 
a two-story Classical-Revival mansion located in the heart of 
Vicksburg, Mississippi. Constructed in the 1830s, the house was used 
during the 1863 Siege of Vicksburg as the headquarters of Confederate 
Lt. Gen. John C. Pemberton. It was from this building that Pemberton 
directed the doomed defense of Vicksburg, and here also on July 3, 
1863, that he held a council of war with his subordinates to discuss 
plans for surrendering the city to General Grant. On the next day, 
Pemberton's army, which had managed to defend Vicksburg through forty-
seven days of bloody siege, solemnly surrendered. Grant's success in 
capturing the ``Gibraltar of the Confederacy'' ended the dramatic 
Vicksburg Campaign, securing the Mississippi River for the Union and 
splitting the Confederacy in half. As historian Bruce Catton noted, the 
loss of Vicksburg was ``a mortal wound to the Confederacy.''
    Pemberton's Headquarters is situated in an area of the city that 
suffered severely under the relentless Union siege bombardment. Its 
acquisition for inclusion in the Vicksburg National Military Park would 
add a greater dimension to the interpretation and understanding of what 
was perhaps the most horrific siege ever inflicted upon an American 
city. In planning for creation of the Vicksburg National Military Park 
in the 1890s, it was the desire and recommendation of both Union and 
Confederate veterans of the Siege of Vicksburg that the headquarters of 
both commanders be included in the park. While Grant's headquarters 
site was included in the confines of the park as established in 1899, 
Pemberton's Headquarters was at the time in private ownership and 
unavailable for public acquisition. Because the current property owner 
is a willing seller, however, we now have the opportunity to fully 
interpret the Siege of Vicksburg as originally envisioned by the 
veterans of the conflict.
    In 1976, Pemberton's Headquarters was designated a National 
Historic Landmark, primarily for its important role in the Siege of 
Vicksburg. However, the building is believed to have also been used by 
Union officers during their subsequent occupation of the city, as they 
did other adjacent and nearby structures. For example, Pemberton's 
Headquarters is located next door to the Balfour House, which served as 
Major Gen. James B. McPherson's headquarters during the Union 
occupation of Vicksburg. Across the street from Pemberton's 
Headquarters is the former Sisters of Mercy Convent, which was also 
converted to military use after the surrender of the city. The Sister's 
of Mercy are renowned for having organized one of Mississippi's first 
schools for the education of African Americans. The historic Warren 
County Courthouse, where the military administration of the occupied 
city was conducted throughout the period of Reconstruction, is only 
four blocks away, as is also the site of the 1865 to 1869 state 
headquarters of the Bureau of Freedmen's Affairs.
    In 1990, P.L. 101-442 charged the Vicksburg Military Park ``'to 
interpret the campaign and siege of Vicksburg from April 1862 to July 
4, 1863, and the history of Vicksburg under Union occupation during the 
Civil War and Reconstruction.'' Located within one of Vicksburg's most 
historic districts and adjacent to the command center of the Union 
occupation of the city, Pemberton's Headquarters is ideally situated 
for the Park to address both the siege and occupation aspects of this 
expanded interpretive mandate, as well as to interpret the significant 
roles played by African Americans during the Vicksburg Campaign and the 
period of Reconstruction.
    Finally, the inclusion of Pemberton's Headquarters in the Vicksburg 
National Military Park would provide a mechanism for attracting more of 
the approximately one million battlefield visitors annually from the 
park on the edge of town into Vicksburg's historic downtown districts. 
The economic benefits of increased tourism to the downtown area would 
be tremendous, as many visitors would no doubt enjoy the many museums, 
tour homes, bed-and-breakfast accommodations, shops, restaurants and 
other amenities that are within easy walking distance of Pemberton's 
Headquarters.
    Linkage between the Vicksburg National Military Park and 
Vicksburg's historic downtown has been cited as vital to the city's 
economy by several economic impact studies, and is strongly supported 
by local leaders, including the present mayor, the Honorable Laurence 
Leyens, and his predecessor, the Honorable Robert Walker, the city's 
first African American mayor. Acquisition of Pemberton's Headquarters 
by the Vicksburg National Military Park would establish a National Park 
Service presence in downtown Vicksburg, which would further enhance the 
park's role as a good citizen of Vicksburg and Warren County.
    For these reasons, I am happy to support H. R. 3307, which will 
authorize acquisition and incorporation of Pemberton's Headquarters 
into the Vicksburg National Military Park. Passage of this bill will 
provide further protection and interpretation for one of America's most 
important historic places.
    Therefore, I respectfully request that the Subcommittee recommend 
authorization of H. R. 3307
    Thank you.
                                 ______
                                 
    [Attachments to Mr. P'Pool's statement follow:]
    [GRAPHIC] [TIFF OMITTED] T8660.001
    
    [GRAPHIC] [TIFF OMITTED] T8660.002
    
    [GRAPHIC] [TIFF OMITTED] T8660.003
    

    Mr. Radanovich. Thank you, Mr. P'Pool
    Now, that bell you heard was a vote call. We have got about 
5 more minutes. I am not sure--I think that everybody has been 
polled--that we are going to have a lot of time for questions 
afterwards. So, Mr. Marker, if you want to give your testimony, 
I think that we are then going to conclude the hearing, but 
allow for members to submit written questions for you to 
answer.
    Mr. Marker, if you want to begin, and please keep it under 
5, that would be great.

  STATEMENT OF TODD MARKER, GENERAL MANAGER, RM BROADCASTING, 
                    PALM SPRINGS, CALIFORNIA

    Mr. Marker. My name is Todd Marker. I am managing partner 
of RM Broadcasting, a California corporation which owns and 
operates two FM radio broadcast stations in the Palm Springs, 
California, area--KPLM and KJJZ. These two stations, plus 
another FM radio station, KMRJ, and the University of Southern 
California's Classical Music/National Public Radio Station, 
KPSC, transmit their broadcast signals from a radio tower 
facility on land which RM Broadcasting owns in an area called 
Indio Hills, located in the little San Bernardino Mountains. 
This site is accessed by a road, a portion of which, 
approximately seven-tenths of a mile, crosses into the Joshua 
Tree National Park zoned wilderness area. RM Broadcasting is 
seeking permission to continue using this short portion of the 
road because: the area is remote and inhospitable to the extent 
that it is not utilized by the public; permission has 
previously been given by the Park Service to use the road 
subject to certain conditions which were fulfilled; no harm has 
been done or is being done to the environment; the road has 
been used without other complaints, difficulties, or problems 
for nearly 20 years; the road is used by the National Park 
Service, the Imperial Irrigation District, the Metropolitan 
Water District for official businesses; the incursion is 
insignificant in length; no further incursion into the 
wilderness area will occur; elimination of the incursion is not 
possible due to the unsuitable terrain.
    The RM Broadcasting tower site, along with its access road, 
have been used by KPLM since the station was put on the air in 
1983. The site and the access road were built by KPLM's 
original owners, RTC Broadcasting. In 1986, KPLM was acquired 
by R Group Management Company. In 1987, the original road was 
improved by the R Group Management Company. At that time, 
National Park Service Superintendent Rick Anderson, since 
retired, notified R Group Management that the road was 
trespassing on the wilderness area. R Group Management 
subsequently agreed that there was trespass but was able to 
negotiate an agreement with former Superintendent Anderson. See 
Exhibits A, B, and C which I have got attached to the written 
testimony.
    This agreement stated that the R Group Management would be 
able to continue to use the road subject to the conditions that 
a gate and a fence be constructed and maintained, that grading 
would be contoured to appear as natural as possible, and that 
public service announcements for the National Park Service 
would be broadcast by KPLM. R Group Management complied with 
these conditions, and RM Broadcasting, which is the present 
owner of KPLM and the tower site property, has continued to 
maintain the road, gate, fence, and continues to broadcast 
public service announcements for the National Park Service.
    This is where the matter stood until March 1997 when RM 
Broadcasting was notified by the new superintendent of the 
National Park Service's Joshua Tree office, Mr. Ernest 
Quintana, that he was reopening the issue of the tower site 
access road's incursion into the wilderness area. Mr. 
Quintana's position was that the road needed to be removed and 
that access through the wilderness area could only take place 
on foot or by mule.
    Unfortunately, accessing the tower site on foot or by mule 
are not practical. Distances involved on either side of the 
contested area, the weight of the necessary equipment, and the 
need to get to the site quickly and on short notice preclude 
these options. Reworking the road to avoid wilderness area land 
would require construction on unsuitable terrain which the 
local zoning authority would not permit.
    For these reasons, RM Broadcasting saw no other solution 
than to respectfully ask Congresswoman Mary Bono, in whose 
district RM Broadcasting maintains its offices, to intercede on 
its behalf. Congresswoman Bono, after carefully considering the 
situation, agreed that it would be onerous and unreasonable for 
RM Broadcasting to discontinue using the disputed portion of 
the tower site access road. Congresswoman Bono then arranged a 
meeting between the principal parties in the matter on August 
27, 2001, in her Palm Springs office.
    The co-owners of RM Broadcasting, Robert Rivkin and Todd 
Marker, met with Ernest Quintana and Mr. John Reynolds, the 
regional director of the National Park Service, Congresswoman 
Bono and her staff. After all parties were heard and after 
carefully considering the situation, Mr. Reynolds recommended 
that Congresswoman Bono sponsor a bill which would allow RM 
Broadcasting to continue to use the access road to its tower 
site, and he affirmed the National Park Service would have no 
objection to such a bill.
    This is the bill, H.R. 3718, which is now before you for 
your vote. RM Broadcasting hopes that you will allow it to 
continue to enjoy the use of the tower site access road as it 
has for almost the past 20 years.
    Attached you will see three different maps as well.
    Thank you.
    [The prepared statement of Mr. Marker follows:]

Statement of Todd Marker, RM Broadcasting, Palm Springs, California, on 
                               H.R. 3718

                                synopsis
    RM Broadcasting, a California corporation, owns and operates two FM 
radio broadcast stations in Palm Springs California, KPLM and KJJZ. 
These two stations, another FM radio station, KMRJ, and the University 
of Southern California's Classical Music/National Public Radio FM 
station, KPSC, transmit their broadcast signals from a radio tower 
facility on land which RM Broadcasting owns in an area called Indio 
Hills located in the Little San Bernardino Mountains. This site is 
accessed by a road, a portion of which (approximately 7/10ths.of a 
mile) crosses into The Joshua Tree National Park zoned Wilderness Area. 
RM Broadcasting is seeking permission to continue using this short 
portion of the road because:
    <bullet> Lthe area is remote and inhospitable to the extent that it 
is not utilized by the public
    <bullet> Lpermission has previously been granted by the Park 
Service to use the road subject to certain conditions which were 
fulfilled
    <bullet> Lno harm has been done or is being done to the environment
    <bullet> Lthe road has been used without other complaints, 
difficulties or problems for nearly twenty years
    <bullet> Lthe road is used by the National Park Service, the 
Imperial Irrigation District, the Metropolitan Water District for 
official business
    <bullet> Lthe incursion is insignificant in length
    <bullet> Lno further incursion into the Wilderness Area will occur
    <bullet> Lelimination of the incursion is not possible due to 
unsuitable terrain.
                               background
    The RM Broadcasting tower site along with its access road have been 
used by KPLM since the station was put on the air in 1983. The site and 
access road were built by KPLM's original owner, RTC Broadcasting. In 
1986 KPLM was acquired by the R Group Management Company. In 1987 the 
original road was improved by the R Group Management Company. At that 
time, National Park Service Superintendent Rick Anderson, since 
retired, notified R Group Management that the road was trespassing on 
the Wilderness Area. R Group Management subsequently agreed that there 
was trespass but was able to negotiate an agreement with former 
Superintendent Anderson (exhibits A, B, C). This agreement stated that 
R Group Management would be able to continue to use the road subject to 
the conditions that a gate and fence be constructed and maintained, 
that grading would be contoured to appear as natural as possible, and 
that Public Service Announcements for the National Park Service would 
be broadcast by KPLM. R Group Management complied with these conditions 
and RM Broadcasting (the present owner of KPLM and the tower site 
property) has continued to maintain the road, gate and fence and 
continues to broadcast Public Service Announcements for the National 
Park Service.
    This is where matters stood until March of 1997 when RM 
Broadcasting was notified by the new Superintendent of the National 
Park Service's Joshua Tree Office, Mr. Ernest Quintana, that he was 
reopening the issue of the tower site access road's incursion into the 
Wilderness Area. Mr. Quintana's position was that the road needed to be 
removed and that access through the Wilderness Area could only take 
place on foot or by mule.
    Unfortunately, accessing the tower site on foot or by mule are not 
practical. Distances involved on either side of the contested area, the 
weight of necessary equipment, and the need to get to the site quickly 
and on short notice preclude these options. Reworking the road to avoid 
Wilderness Area land would require construction on unsuitable terrain 
which the local zoning authority would not permit.
    For these reasons, RM Broadcasting, saw no other solution than to 
respectfully ask Congresswoman Mary Bono (44th. Congressional 
District), in whose district RM Broadcasting maintains its offices, to 
intercede on its behalf. Congresswoman Bono, after carefully 
considering the situation, agreed that it would be onerous and 
unreasonable for RM Broadcasting to discontinue using the disputed 
portion of the tower site access road. Congresswoman Bono then arranged 
a meeting between the principal parties in the matter.
    On August 27th., 2001, in her Palm Springs Office, the co-owners of 
RM Broadcasting, Robert Rivkin and Todd Marker, met with Mr. Ernest 
Quintana, Mr. John Reynolds, the regional director of The National Park 
Service, Congresswoman Bono, and her staff. After all parties were 
heard and after carefully considering the situation, Mr. Reynolds 
recommended that Congresswoman Bono sponsor a bill which would allow RM 
Broadcasting to continue to use the access road to its tower site and 
he affirmed that the National Park Service would have no objection to 
such a bill.
    This is the bill, H.R. 3718 which is now before you for your vote. 
RM Broadcasting hopes that you will allow it to continue to enjoy the 
use of the tower site access road as it has in the past.
                                 ______
                                 
    Mr. Radanovich. Thank you very much. I appreciate your 
testimony. Again, we have got 6 minutes left to vote, so I 
think with that, we will conclude this hearing. But members are 
encouraged to submit questions that they might have asked to 
each one of these witnesses, and I am sure they will be happy 
to respond to any one of those, which will contribute to making 
this hearing complete.
    I want to thank every witness for being here, and your 
testimony was much appreciated. Thank you, and with that, this 
hearing is closed.
    [Whereupon, at 3:35 p.m., the Subcommittee was adjourned.]

                                   - 

</pre></body></html>
